<html>
<title> - CREATING A CLIMATE RESILIENT AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]










                  CREATING A CLIMATE RESILIENT AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 23, 2019

                               __________

                            Serial No. 116-4









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-407                   WASHINGTON : 2019















                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov





















                            C O N T E N T S

                              ----------                              

                   Statements of Members of Congress

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     3
Hon. Robert Scott, a Representative in Congress from the State of 
  Virginia, prepared statement, submitted for the record by Ms. 
  Castor.........................................................    56

                               Witnesses

Noah Diffenbaugh, Kara J Foundation Professor and Kimmelman 
  Family Senior Fellow, Stanford Woods Institute for the 
  Environment
    Oral Statement...............................................     6
    Prepared Statement...........................................     7
Rachel Cleetus, Policy Director, Climate and Energy Program, 
  Union of Concerned Scientists
    Oral Statement...............................................    11
    Prepared Statement...........................................    13
Hon. Keith Hodges, Virginia State Delegate, 98th District of 
  Virginia
    Oral Statement...............................................    26
    Prepared Statement...........................................    28
Matthew Russell, Executive Director, Iowa Interfaith Power and 
  Light
    Oral Statement...............................................    29
    Prepared Statement...........................................    31

                       Submissions for the Record

Speech by Sarah Braden, Avoiding the storm: Climate change and 
  the financial system, submitted for the record by Mr. Casten...    52
Report, Unprecedented climate events: Historical changes, 
  aspirational targets, and national commitments, submitted for 
  the record by Mr. Lujan........................................    55
Article from The Hill, ``Paris Agreement goals could save 
  trillions in avoided climate damages,'' submitted for the 
  record by Mr. Lujan............................................    55

                                Appendix

Question for the Record from Hon. Kathy Castor for Noah 
  Diffenbaugh....................................................    57
Question for the Record from Hon. Suzanne Bonamici for Noah 
  Diffenbaugh....................................................    59
Questions for the Record from Hon. Mike Levin for Noah 
  Diffenbaugh....................................................    61
Questions for the Record from Hon. Kathy Castor for Rachel 
  Cleetus........................................................    63
Question for the Record from Hon. Suzanne Bonamici for Rachel 
  Cleetus........................................................    66

 
                  CREATING A CLIMATE RESILIENT AMERICA

                              ----------                              


                         THURSDAY, MAY 23, 2019

                  House of Representatives,
            Select Committee on the Climate Crisis,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:03 a.m., in Room 
2247, Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Lujan, Brownley, Huffman, 
McEachin, Levin, Casten, Neguse, Graves, Griffith, Palmer, 
Carter, and Miller.
    Ms. Castor. The committee will come to order.
    And welcome to the May 23, 2019, committee meeting for the 
House Select Committee on the Climate Crisis. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. And I invite everyone to follow the 
witness testimony or read it at climatecrisis.house.gov. That 
is our website. There are some very impressive graphics 
contained in witness testimony and I encourage you all to 
review it. Again, that is climatecrisis.house.gov.
    Today, we are going to examine the largest consequences and 
costs of climate change and set the table for how communities' 
ecosystems and the food system can be more resilient in the 
face of a changing climate.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Our last hearing focused on drawing down carbon pollution 
while building up the American economy. Today, we are examining 
another component of climate action, preparing for the 
consequences of the climate crisis, consequences that are here 
already and what is to come.
    We need to create a climate resilient America. Floodwaters, 
extreme heat, wildfires, they do not care if we live in a red 
district or a blue district. In my home State of Florida, 
Republicans and Democrats at the local level are working 
together to protect the places that we know and love. And we 
can do the same thing here in Washington, D.C.
    The climate crisis isn't somebody else's problem; it is 
everybody's problem. There are more than 300,000 coastal homes 
worth a total value of almost $120 billion that are expected to 
face chronic flooding in the next 30 years. When the seas rise, 
so does the cost to American families on our coast. When brutal 
heat waves hit our communities, people get sick and 
agricultural crops and animals suffer.
    If we fail to take action, the cost of extreme heat and 
poor air quality from the climate crisis could add up to $167 
billion a year. And we could lose another $155 billion a year 
simply from days when it is too hot for people to work outside, 
according to the National Climate Assessment.
    And then there are the disasters. The number of billion 
dollar weather disasters in the United States has more than 
doubled in recent years. In 2017, we set a record with more 
than $300 billion worth of damage. And 2018 was close behind 
with nearly $100 billion. Many of these disasters are worse 
because of the climate crisis, including wildfires, dramatic 
swings in rainfall, and coastal storm surge.
    When these disasters happen, we have a moral obligation to 
help. It is frustrating that so many Americans in Puerto Rico 
and Florida and across the country are still waiting for help 
in the aftermath of disasters. Because solving the climate 
crisis also requires a commitment to climate justice, that 
means correcting the injustices that leave so many people, 
especially people of color, vulnerable to flooding, heat waves, 
and wildfires.
    These are daunting problems, but the good news is we have 
solutions. We can protect our communities from the climate 
crisis, while we cut the carbon pollution that is causing the 
climate to change in the first place. For instance, energy 
efficiency and smarter grids help keep power flowing and air-
conditioning moving during dangerous heat waves. That saves 
life. And when we restore wetlands on our coast, those trees 
and plants can absorb the devastating power of coastal storms. 
And they absorb something else as they grow: carbon.
    And increasingly, farmers are adjusting their practices to 
increase soil health, which makes farms more resilient to the 
impacts of extreme weather, and increases carbon stored in the 
soil. As we continue our work, we are looking forward to 
solutions to the climate crisis that provide multiple benefits: 
that reduce carbon pollution, that protect communities, and 
produce good jobs.
    The costs of the climate crisis are already adding up, and 
it is time that we invest in climate solutions instead. But it 
is more than just dollars. It is about leaving our children a 
cleaner, safer, and healthier world. The millions of young 
people who are joining climate strikes tomorrow, Fridays for 
the Future, never lived in a normal climate, and they know it. 
That is why they are demanding climate action now, because we 
need to start baking the climate crisis into every decision we 
make, on energy, on transportation, on agriculture and 
infrastructure.
    The climate crisis is here, and we need to act like it. 
This is personal. This is happening to our neighbors, this is 
happening to all of us. When disasters happen, we should put 
the politics of the day aside, come together, and solve 
problems. Our expert witnesses will recommend policies to do 
so, because we need to come together and take climate action 
now. We are all in this together.
    At this time, I yield 5 minutes to the Ranking Member 
Graves for an opening statement.
    [The statement of Ms. Castor follows:]

              Opening Statement (As Prepared for Delivery)

                        Rep. Kathy Castor (D-FL)

           U.S. House Select Committee on the Climate Crisis

                  Creating a Climate Resilient America

                              May 23, 2019

    Good morning. Our last hearing focused on drawing down carbon 
pollution while building up the American economy. Today we are 
examining another important component of climate action: preparing for 
the consequences of the climate crisis--consequences that are here 
already and what is to come. We need to create a climate resilient 
America. Floodwaters, extreme heat, wildfires: they do not care if we 
live in a red district or a blue district. In Florida, Republicans and 
Democrats at the local level are working together to protect the places 
we know and love. We can do the same in Washington, DC.
    The climate crisis isn't somebody else's problem. It's everyone's 
problem.
    There are more than 300,000 coastal homes worth a total value of 
almost $120 billion that are expected to face chronic flooding in the 
next 30 years. When the seas rise, so does the cost to American 
families on our coasts.
    When brutal heat waves hit our communities, people get sick and 
agricultural crops and animals suffer. If we fail to take action, the 
cost of extreme heat and poor air quality from the climate crisis could 
add up to $167 billion a year. And we could lose another $155 billion a 
year simply from days when it is too hot for people to work outside, 
according to the National Climate Assessment.
    And then there are the disasters. The number of billion-dollar 
weather disasters in the United States has more than doubled in recent 
years. 2017 set a record with more than $300 billion worth of damage. 
2018 was close behind with nearly $100 billion. Many of these disasters 
are worse because of the climate crisis, including wildfires, dramatic 
swings in rainfall, and coastal storm surge.
    When these disasters happen, we have a moral obligation to help. 
It's frustrating that so many Americans in Puerto Rico, Florida and 
across the country are still waiting for help in the aftermath of 
disasters. Because solving the climate crisis also requires a 
commitment to climate justice. That means correcting the injustices 
that leave so many people, especially people of color, vulnerable to 
flooding, heat waves and wildfires.
    These are daunting problems, but the good news is we have 
solutions. We can protect our communities from the climate crisis, 
while we cut the carbon pollution that is causing the climate to change 
in the first place.
    For instance, energy efficiency and a smarter grid helps keeps 
power flowing and air conditioning going during dangerous heat waves. 
That saves lives.
    And when we restore wetlands on our coast, those trees and plants 
can absorb the devastating power of coastal storms. And they absorb 
something else as they grow: carbon.
    And increasingly farmers are adjusting their practices to increase 
soil health which makes farms more resilient to the impacts of extreme 
weather and increases carbon stored in the soil.
    As we continue our work, we are looking for solutions to the 
climate crisis that provide multiple benefits--that reduce carbon 
pollution, that protect communities and create good jobs. The costs of 
the climate crisis are already adding up. It's time to invest in 
climate solutions.
    But it more than just dollars. It's about leaving our children a 
cleaner, safer and healthier world.
    The millions of young people who are joining climate strikes 
tomorrow have never lived in a normal climate--and they know it. That's 
why they're demanding climate action now, because we need to start 
baking the climate crisis into every decision we make--on energy, on 
transportation, on agriculture, on infrastructure.
    The climate crisis is here. And we need to act like it. This is 
personal. This is happening to our neighbors. This is happening to us. 
When disasters happen, we should put the politics of the day aside, 
come together, and solve problems. Our expert witnesses will recommend 
policies to do so, because we need to come together to take climate 
action now. We are all in this together.

    Mr. Graves. Thank you, Madam Chair.
    And I want to thank all the witnesses for taking the time 
to be here today and for the appropriation of your testimony.
    I asked the chair to focus on this topic first, and there 
is a very good reason for that. As we heard during the last 
hearing, when Congressman Palmer asked a question of some of 
our witnesses, he basically said, what happens if we cut all 
emissions from the United States today? Are we still going to 
see this momentum continue moving forward in terms of 
temperature changes and seas rising? And the answer was yes.
    And I am doing this from memory, so there is an excellent 
chance I am going to get this somewhat wrong. But I think you 
then went on to ask, what happens if all countries cut 
emissions? Would we see a stopping of this sea rise increase 
and temperature changes? And I think the answer was no.
    What that means is that there is effectively nothing we can 
do right now, based on our current understanding of science and 
technology. There is nothing we can do to stop this momentum of 
temperatures changing and seas rising in the immediate term. 
And I want to distinguish that, in the immediate term. I am not 
saying long term; in the immediate term.
    So if things are changing, if we are--if we have this 
momentum built up and we have seas rising and we have 
temperatures changing. And as the chair just covered, we are 
seeing these disasters occurring, and they are occurring for a 
few reasons in terms of the cost. They are occurring because of 
development. They are occurring because in the coastal 
counties, parishes, and boroughs that the chair and I represent 
and others, while that only represents 10 percent of the land 
area of the United States, it is where 40 percent of our 
population lives, and it is growing. More people want to live 
on the water where we are having these greater vulnerabilities 
with sea rise storms and other challenges.
    This is an area where we absolutely need to focus, and 
there is zero reason why this should even be a remotely 
partisan issue. And that is why we did work and, I think, were 
able to make unprecedented advances in the last Congress in 
helping to move toward an adaptation or mitigation type 
strategy.
    Number one, we actually incentivized parishes, counties, 
and States to be proactive, to lean forward. And they will get 
a reduced cost share on disasters. Number two, between some of 
the funds through the Corps of Engineers and through HUD--and I 
want to make note, HUD, who can't think their way out of a wet 
paper bag to get this money out on the street--we have provided 
record levels of funding for flood mitigation, again, through 
the Corps of Engineers and through HUD. And I am going to beat 
HUD again. We appropriated this money in February of last year, 
and they still haven't even figured out how to write the 
Federal Register guidance on how the States can access these 
dollars. It is inexcusable.
    We were able to come in and look at this $100 billion of 
backlog of water resource projects to the U.S. Army Corps of 
Engineers, enabled to carry out some expedited features to move 
those projects forward faster. We were able to define a 
resiliency standard within the Disaster Recovery and Reform Act 
last year, whereby we are not building back to how things were; 
we are building for the future, providing additional 
flexibility of this 428 authority in the aftermath of 
disasters.
    We have more flexibility in how you build back. A lot of 
advancements last year and many others but some really 
important progress.
    Now, the other thing that is really important, because I 
want to emphasize once again, I am not saying that just if we 
adapt, we just stop and say, okay, we are done. We do need to 
make sure that we expand the access and portfolio of clean 
energy solutions and opportunities for our citizens. We do need 
to continue, continue on this trajectory of reducing emissions 
in the United States. And while many people like to demonize 
this country, both Americans and people from other countries 
like to demonize the United States. I am once again going to go 
on a victory lap and say that the United States, since 2000, 
has had the greatest absolute reduction of emissions in the 
world, period.
    So we need to recognize that we are actually doing a pretty 
good job and we can continue on this trajectory without 
wrecking the U.S. economy. And we can make progress in terms of 
options, energy options for our citizens. And we can help to 
bend this curve of growing emissions that we are seeing around 
the world, not from the United States, but from other countries 
like China, India, and others, to ensure that we can provide a 
future for these next generations that is sustainable, that is 
resilient.
    I yield back.
    Ms. Castor. Without objection, members who wish to enter 
opening statements into the record may have 5 business days to 
do so.
    Now I want to welcome our witnesses. First, we have Dr. 
Noah Diffenbaugh, who is a professor of Earth, energy, and 
environmental sciences at Stanford University. Dr. Diffenbaugh 
studies the climate system, including the processes by which 
climate change could impact agriculture, water resources, and 
human health. He served as a lead author for Working Group II 
of the Intergovernmental Panel on Climate Change, and has 
provided testimony in scientific expertise to Federal and State 
policymakers.
    Dr. Rachel Cleetus is the policy director with the Climate 
and Energy Program at the Union of Concerned Scientists. Her 
research focuses on the risks and costs of climate impact. She 
is an expert on policies to promote climate resilience. She has 
coauthored numerous reports, including the recent Union of 
Concerned Scientists' report, Underwater: Rising Seas, Chronic 
Floods, and the Implications for U.S. Coastal Real Estate.
    Mr. Keith Hodges represents the 98th District in the 
Virginia State House of Delegates, where he has worked on 
flooding and coastal resiliency and has produced legislation on 
those. Mr. Hodges is a lifelong resident of the 98th District 
of Virginia and was elected in 2011.
    Mr. Matt Russell is the executive director of Iowa 
Interfaith Power and Light, as well as a fifth generation Iowa 
farmer. He is a leader and expert on sustainable agriculture 
and finding solutions to climate change. Prior to joining Iowa 
Interfaith Power and Light, Mr. Russell worked at the Drake 
University Agricultural Law Center focusing on issues 
concerning retail agriculture, conservation, climate change, 
rural development, and Federal farm policy.
    Without objection, the witnesses' written statements may be 
made part of the record.
    With that, Dr. Diffenbaugh, you are now recognized to give 
a 5-minute presentation on your testimony.

 STATEMENTS OF NOAH DIFFENBAUGH, SENIOR FELLOW, STANFORD WOODS 
INSTITUTE FOR THE ENVIRONMENT; RACHEL CLEETUS, POLICY DIRECTOR, 
  CLIMATE AND ENERGY PROGRAM, UNION OF CONCERNED SCIENTISTS; 
    KEITH HODGES, VIRGINIA STATE DELEGATE, 98TH DISTRICT OF 
VIRGINIA; AND MATT RUSSELL, EXECUTIVE DIRECTOR, IOWA INTERFAITH 
                        POWER AND LIGHT

                 STATEMENT OF NOAH DIFFENBAUGH

    Mr. Diffenbaugh. Thank you.
    Thank you, Chairwoman Castor and Ranking Member Graves and 
the committee, for the invitation to testify.
    My name is Noah Diffenbaugh. I am a professor and senior 
fellow at Stanford University. I am appearing today in my 
personal capacity.
    The subject of today's hearing is creating a climate 
resilient America. The good news for our country is that 
although climate change is already impacting Americans, there 
are many opportunities for us to become more resilient, and in 
doing so build a more vibrant, secure, and equitable Nation.
    My testimony will focus on the scientific evidence for the 
changing risks posed by global warming. You have already heard 
testimony summarizing the IPCC reports and the National Climate 
Assessment. So I would like to start by summarizing an 
assessment that my colleagues and I recently published 
evaluating the scientific evidence from the perspective of 
EPA's endangerment finding.
    As you know, EPA issued the endangerment finding for 
greenhouse gases in 2009. This followed the 2007 Supreme Court 
ruling that EPA must regulate greenhouse gases under the Clean 
Air Act if those gases are found to, quote, ``endanger the 
public health and welfare,'' end quote.
    The finding evaluated risks in eight areas: public health; 
air quality; food production and agriculture, forestry; water 
resources; sea level rise and coastal areas; energy, 
infrastructure and settlements; and ecosystems and wildlife.
    Drawing on more than 280 studies, our multidisciplinary 
team found that, not only was the evidence for endangerment 
strong in 2009, but also that the evidence has increased in all 
eight areas of the original finding.
    We also found that there is now strong evidence of entirely 
new kinds of impacts that weren't featured in the finding. 
These include ocean acidification, interpersonal violence, 
national security, and economic well-being.
    Economic well-being represents a particular area of 
increased understanding. Recent analysis shows that should 
global warming continue along the current trajectory, the 
majority of U.S. counties are likely to suffer economic damages 
arising from impacts in areas such as labor productivity, 
agricultural yields, and coastal damage.
    Integrating across these sectors suggests that each 1 
degree Celsius of warming is likely to result in damages 
exceeding 1 percent of U.S. GDP, with poorer counties suffering 
the most.
    Further, in my research with Professor Marshall Burke, also 
at Stanford, we found that holding global warming to 1.5 
degrees Celsius could reduce cumulative economic damages in the 
United States by $6 trillion, relative to the 2 degree C 
target.
    Across the country, we are already experiencing rising 
economic costs from extreme events. In my home State of 
California, we have experienced a remarkably costly series of 
extremes over the past 7 years, from drought and heat waves, to 
flooding and mudslides, to wildfires and smoke plumes. These 
events have caused billions of dollars in damage, killed tens 
of millions of trees, cost tens of thousands of jobs, left 
thousands of residents without running water, and claimed 
hundreds of lives. And many other parts of the country have 
experienced similar impacts.
    One reason that the evidence for endangerment has increased 
over the past decade is that we have made tremendous strides in 
understanding the influence of global warming on individual 
extremes. My research shows that global warming has already 
increased the odds of record-setting hot and wet events for 
around 75 percent of North America, and record-setting dry 
spells for more than 50 percent of North America.
    The influence of global warming has also been detected in 
many specific events, from the extremely hot, dry summer that 
devastated crops in the Midwest in 2012, to the prolonged 
California drought, to the storm surge flooding during 
Hurricane Sandy, and the record-setting rainfall delivered to 
Houston by Hurricane Harvey.
    In the aftermath of these extremes, we are seeing inspiring 
examples of how communities, companies, and State and local 
governments can work together to build climate resilience. In 
California, the State's climate efforts offered a roadmap that 
integrates mitigation, adaptation and, quote, ``an integral 
commitment to remedying past injustice,'' end quote.
    In California and across the country, we are seeing 
examples of how to simultaneously reduce greenhouse gas 
emissions, sustain economic growth, address environmental 
injustice, and invest in climate resilience for all citizens.
    I applaud the committee for working to create a climate 
resilient America. And I am happy to answer any questions.
    [The statement of Mr. Diffenbaugh follows:]

              Written Testimony of Dr. Noah S. Diffenbaugh

     Kara J Foundation Professor and Kimmelman Family Senior Fellow

                          Stanford University

          Hearing on ``Creating a Climate Resilient America''

       United States House Select Committee on the Climate Crisis

                              May 23, 2019

    Good morning. Thank you Chairwoman Castor, Ranking Member Graves, 
and the members of the Committee for the invitation to testify today.
    My name is Noah Diffenbaugh. I am a Professor in the School of 
Earth, Energy and Environmental Sciences at Stanford University, and a 
Senior Fellow at Stanford's Woods Institute for the Environment. I am 
appearing today in my personal capacity, not on behalf of Stanford 
University.
    I study Earth's climate, including how changes in regional and 
local conditions--such as extreme weather events--affect people and 
ecosystems. I have just completed a 4-year term as Editor-in-Chief of 
Geophysical Research Letters, one of the leading peer-reviewed journals 
publishing climate science research. I have been a lead author for a 
number of scientific assessments, including the IPCC Fifth Assessment 
Report and the California Climate-Safe Infrastructure Working Group.
    The subject of this hearing of the Select Committee on the Climate 
Crisis is ``Creating a Climate Resilient America''. The good news for 
our country is that, although climate change is already impacting 
Americans, there are many opportunities for us to become more 
resilient, and in doing so build a more vibrant, secure, and equitable 
nation.
    To create a more climate resilient America, we must understand the 
changing risks posed by global warming. My testimony today will focus 
on the scientific evidence of those risks, including how they have 
changed in response to the warming that has already happened, and how 
they are likely to change in the future in response to different 
greenhouse gas trajectories.
    There have been many reports synthesizing the scientific knowledge 
of climate change. In addition to the IPCC reports and the National 
Climate Assessment--which have been summarized during previous 
testimony--my colleagues and I recently evaluated the scientific 
evidence \1\ from the perspective of EPA's ``Endangerment Finding'' for 
greenhouse gases.
---------------------------------------------------------------------------
    \1\ Duffy, P.B., Field, C.B., Diffenbaugh, N.S., et al., 2019. 
Strengthened scientific support for the Endangerment Finding for 
atmospheric greenhouse gases. Science, 363(6427), eaat5982.
---------------------------------------------------------------------------
    As you know, EPA issued the Endangerment Finding in 2009, following 
the 2007 Supreme Court ruling that EPA must regulate carbon dioxide and 
other greenhouse gases under the Clean Air Act if those gases are found 
to ``endanger the public health and welfare.'' The Finding evaluated 
climate risks in eight areas: (1) public health; (2) air quality; (3) 
food production and agriculture; (4) forestry; (5) water resources; (6) 
sea level rise and coastal areas; (7) energy, infrastructure and 
settlements; and (8) ecosystems and wildlife.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    For each of these areas, our multidisciplinary team assessed (i) 
strength of evidence for a link with anthropogenic climate change, (ii) 
severity of observed and projected impacts, and (iii) new risks beyond 
those considered in the original Finding. Drawing upon more than 280 
studies, we found that not only was the evidence for endangerment 
strong in 2009, but also that the evidence has increased in all eight 
of the areas considered in the Finding. Further, we found that there is 
now strong evidence of entirely new kinds of impacts that were not 
featured in the original Finding. These include ocean acidification, 
interpersonal violence, national security, and economic wellbeing.
    Economic wellbeing represents a particular area of increased 
understanding. For example, recent analysis \2\ shows that should 
global greenhouse gas emissions continue along the current trajectory, 
the majority of US counties are likely to suffer negative economic 
impacts. These include decreased labor productivity and increased crime 
throughout most of the US, along with impacts from mortality, energy 
expenditures, coastal damage, and/or crop yields across large swaths of 
the country. Integrating across these sectors suggests that each 1+C of 
warming is likely to result in damages exceeding 1% of US GDP, with 
poorer counties suffering the most.
---------------------------------------------------------------------------
    \2\ Hsiang, S., Kopp, R., Jina, A., Rising, J., Delgado, M., Mohan, 
S., Rasmussen, D.J., Muir-Wood, R., Wilson, P., Oppenheimer, M. and 
Larsen, K., 2017. Estimating economic damage from climate change in the 
United States. Science, 356(6345), pp.1362-1369.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Work that I have published with Prof. Marshall Burke \3\ has used a 
different approach, but yielded similar results: Analyzing aggregate 
GDP, we found that holding global warming to 1.5+C could reduce global 
economic damages by more than $20 trillion (relative to the 2+C 
target), with cumulative savings to the US economy potentially totaling 
$6 trillion. Further, in a new study published last month,\4\ we found 
that historical global warming has negatively impacted per capita GDP 
in most countries in the tropics and sub-tropics, including reductions 
of as much as 25% in Central and South America (relative to a world 
without global warming). Our estimates suggest that these southern 
neighbors are likely to experience increased economic damages in 
response to continued warming.
---------------------------------------------------------------------------
    \3\ Burke, M., Davis, W.M. and Diffenbaugh, N.S., 2018. Large 
potential reduction in economic damages under UN mitigation targets. 
Nature, 557(7706), p.549-553.
    \4\ Diffenbaugh, N.S. and Burke, M., 2019. Global warming has 
increased global economic inequality. Proceedings of the National 
Academy of Sciences, 116(20), pp.9808-9813.
---------------------------------------------------------------------------
    Here in the US, we are already experiencing rising economic costs 
from extreme events. As American citizens suffer through heatwaves, 
droughts, floods, hurricanes and wildfires, there is now clear evidence 
that the frequency of extremes is increasing, and that the costs are 
rising. In particular, the past decade has witnessed tremendous strides 
in understanding the influence of global warming on individual extreme 
events, such as the recent California Drought \5\ and the record-
setting Houston rainfall that occurred during Hurricane Harvey.\6\ My 
research \7\ shows that global warming has already increased the odds 
of record-setting hot and wet events for around 75% of North America, 
and record-setting dry spells for more than 50% of North America. In 
addition, the influence of global warming has now been detected in many 
specific events, including heatwaves, cold snaps, heavy rainfall, 
floods, droughts, and the precipitation and storm surge delivered by 
tropical cyclones.
---------------------------------------------------------------------------
    \5\ Diffenbaugh, N.S., Swain, D.L. and Touma, D., 2015. 
Anthropogenic warming has increased drought risk in California. 
Proceedings of the National Academy of Sciences, 112(13), pp.3931-3936.
    \6\ Emanuel, K., 2017. Assessing the present and future probability 
of Hurricane Harvey's rainfall. Proceedings of the National Academy of 
Sciences, 114(48), pp.12681-12684.
    \7\ Diffenbaugh, N.S., Singh, D. and Mankin, J.S., 2018. 
Unprecedented climate events: Historical changes, aspirational targets, 
and national commitments. Science advances, 4(2), eaao3354.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In my home state of California, we have experienced an extremely 
costly series of such events over the past 7 years, from drought and 
heatwaves, to flooding and mudslides, to wildfires and smoke plumes. 
These events have caused billions of dollars in damage, killed tens of 
millions of trees, cost tens of thousands of jobs, left thousands of 
residents without running water, claimed hundreds of lives, and created 
---------------------------------------------------------------------------
public health emergencies throughout the state.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Many other parts of the country have experienced similar events in 
recent years, from the Northeast to the Southwest, and the Gulf to the 
Great Plains. In the aftermath, we are seeing inspiring examples of how 
communities, companies, and state and local governments can work 
together to build climate resilience. The California Climate-Safe 
Infrastructure Working Group's recent report \8\ is a prime example of 
a roadmap that integrates mitigation, adaptation and ``an integral 
commitment to remedying past injustice''. This commitment is emerging 
across California's climate efforts, which include the recently renewed 
cap-and-trade policy, the Sustainable Groundwater Management Act, and 
the Safeguarding California Plan.
---------------------------------------------------------------------------
    \8\ Climate-Safe Infrastructure Working Group (CSIWG). 2018. Paying 
it forward: The Path Toward Climate-Safe Infrastructure in California. 
Report of the Climate-Safe Infrastructure Working Group to the 
California State Legislature and the Strategic Growth Council. 
Sacramento, CA: CNRA, Publication number: CNRA-CCA4-CSI-001.
---------------------------------------------------------------------------
    Although our nation faces serious risks from climate change, and 
income inequality and environmental justice remain critical concerns, 
we are seeing many examples around the country of how it is possible to 
simultaneously reduce greenhouse gas emissions, sustain economic 
growth, and invest in climate resilience for all citizens.
    Climate change presents imposing challenges, but there are also 
many opportunities to build a more climate resilient America. I applaud 
the Committee for working on this critical issue, and I look forward to 
discussing any questions that you may have.

    Ms. Castor. Thank you very much.
    Dr. Cleetus, you are recognized for 5 minutes.

                  STATEMENT OF RACHEL CLEETUS

    Ms. Cleetus. Thank you.
    Good morning, and thank you, Chairwoman Castor, Ranking 
Member Graves, and members of the select committee. Thank you 
for providing me the opportunity to testify here today.
    My name is Rachel Cleetus, and I am the policy director and 
the lead economist for the Climate and Energy Program at the 
Union of Concerned Scientists.
    I would like to start today with some research that we 
released last year on the impacts of worsening tidal flooding 
on coastal property in the United States. What our studies 
showed is that by the end of the century, approximately 2.5 
million U.S. coastal homes and commercial properties currently 
worth more than $1 trillion would be at risk from chronic 
flooding. And by 2045, within the lifetime of a typical 
mortgage issued today, about 325,000 coastal properties worth 
$136 billion are at risk. The properties at risk by 2045 
contribute nearly $1.5 billion to today's property tax base, 
and those numbers jump to $12 billion by 2100. States with the 
most homes at risk include Florida, with 1 million homes at 
risk by the end of the century; New Jersey with 250,000; and 
New York with 143,000.
    And the declining value of these homes, while it will be 
devastating for individual homeowners, also has broad 
implications for other parts of our economy, including the 
affected communities, lenders, investors, and taxpayers. And we 
know that communities that have fewer resources to begin with 
will be the hardest hit. These include communities in 
Louisiana, North Carolina, New Jersey, and Maryland, that our 
research shows will be highly exposed to chronic flooding and 
have higher than average poverty rates.
    UCS has also developed an interactive mapping tool that 
allows you to explore these risks in your congressional 
districts, and we have fact sheets to go along with that.
    Our research points to a choice we face: If the global 
community adheres to the primary goals the Paris Agreement of 
keeping warming to below 2 degrees Celsius and its land-based 
ice loss is limited, the U.S. could avoid up to 85 percent of 
these coastal property losses.
    UCS has also analyzed the exposure of 18 military 
installations along the eastern Gulf Coast to sea level rise. 
In the absence of preventive measures, these sites, including 
bases in Virginia, Georgia, and Florida, face major risks. By 
2050, most of the installations we analyzed will see more than 
10 times the number of floods they experience today. By 2100, 
eight bases are at risk of losing 25 to 50 percent of their 
land to rising seas. Four installations, Naval Air Station Key 
West, Joint Base Langley-Eustis, Dam Neck Annex, and Parris 
Island, are at risk of losing between 75 and 95 percent of 
their land by the end of the century.
    As Dr. Diffenbaugh pointed out, scientists have linked 
Hurricane Harvey's unprecedented levels of rainfall to warmer 
air and oceans caused by climate change. We did analysis in the 
wake of that storm showing that more than 650 energy and 
industrial facilities may have been exposed to Hurricane 
Harvey's floodwaters.
    In the Houston area, low-income communities and communities 
of color have long been disproportionately exposed to toxic 
chemicals, as local environmental justice groups like TEJAS 
have pointed out. And in the hurricane's wake, we saw 
floodwaters contaminated with toxic chemicals and potent 
bacteria, compromised industrial facilities, toxins released 
into the air, all of which magnified the public health burden 
on these communities.
    Climate change is making heavy rains heavier and more 
frequent in many parts of the country, with human alteration of 
the land, including engineering of rivers, and increased 
construction in flood plains. Many parts of the U.S. are at 
greater risk of destructive and costly floods. This spring 
alone has brought terrible flooding to many parts of the 
country, including Louisiana, Texas, the Midwest, and all along 
the Mississippi and Missouri Rivers. NOAA data confirmed that 
at the end of April 2019, the U.S. has just experienced the 
wettest 12 months on record.
    Climate projections show that these conditions are likely 
to grow worse in many parts of the country in the decades 
ahead. The Fourth National Climate Assessment also highlights 
many ways in which climate change is going to contribute to 
worsening health risks, including through extreme heat events, 
flooding, wildfires, intensifying storms, and other events, 
which can contribute to poor air quality, heat-related 
illnesses, water and vector-borne diseases, mental illnesses 
associated with stress and trauma.
    And in many cases, socioeconomic and environmental factors 
can exacerbate the vulnerability of specific populations, 
including the elderly, the very young, outdoor workers and 
athletes, many tribal communities and communities of color, and 
people who live in poverty.
    These grave risks require an urgent response from the 
Federal, State, and local policymakers, as well as the private 
sector, to better protect communities and build resilience. 
Broadly, we need to make sure that these risks are being better 
communicated and taken into account in our policies and 
programs, everything from FEMA and HUD programs to what is 
happening at the local level in terms of building codes and 
zoning codes. We need to make sure that robust expeditious 
funding of disaster assistance flows quickly to hard-hit 
communities in a way that builds resilience to future events.
    We need bold and visionary leadership. We need resources 
for adaptation, investments and coordination, governance, 
stakeholder engagement. And our Nation's resilience efforts 
must prioritize the needs of those who will be 
disproportionately exposed to these risks.
    Most importantly, we must make deep cuts in heat-trapping 
emissions and contribute to global efforts to limit climate 
change. Every fraction of a degree we can avoid matters in 
terms of the climate impacts we will face.
    Adaptation is costly, and there are limits to how much 
change we can adapt to. Transitioning to a low-carbon economy 
by investing in renewables and efficiency and other low and 
zero carbon options reaching that zero carbon emissions by mid 
century will not only help address climate change, it will 
deliver tremendous near-term public health and economic 
benefits.
    Ms. Castor. Dr. Cleetus----
    Ms. Cleetus. In closing, I am here today both as a climate 
expert and as a mom. I have two young children aged 11 and 13, 
and like many of you with young people in your lives, I am 
acutely aware that the choices we make today, choices that you 
and Congress are uniquely empowered to help make, will be 
deeply consequential to their future. I hope we will seize this 
opportunity to make their future generations prosper without 
fear of runaway climate change.
    Thank you for the opportunity to testify.
    [The statement of Ms. Cleetus follows:]

 Written Testimony of Dr. Rachel Cleetus, Policy Director, Climate and 
                             Energy Program

                     Union of Concerned Scientists

                ``Creating a Climate Resilient America''

              House Select Committee on the Climate Crisis

                              May 23, 2019

    Hello and thank you, Chairwoman Castor, Ranking Member Graves, and 
Members of the Select Committee, for providing me the opportunity to 
testify here today. My name is Rachel Cleetus. I am the policy director 
and lead economist for the climate and energy program at the Union of 
Concerned Scientists. I am here today to share my perspectives on the 
impacts of climate change, particularly on coastal communities, and 
some vital, urgent steps our nation must take to limit the harms coming 
our way.
             impacts of sea level rise on coastal property
    I'd like to start with some research my colleagues and I have been 
doing on the impacts of sea level rise to coastal communities. Our 
research shows that long before rising seas permanently submerge 
properties, millions of Americans living in coastal communities will 
face more frequent and disruptive high-tide flooding. Last year we 
released a report showing that, by the end of the century, under a high 
sea level rise scenario (which I will use throughout this testimony 
unless otherwise indicated),\1\ approximately 2.5 million US coastal 
homes and commercial properties currently worth more than $1 trillion 
would be at risk from chronic flooding--a threshold we defined as 
flooding that occurs 26 times per year or more. By 2045, within the 
lifetime of a typical mortgage issued today, about 325,000 coastal 
properties worth $136 billion will be at risk of chronic flooding (see 
figures 1 and 2).
---------------------------------------------------------------------------
    \1\ The high scenario, which is drawn from the 2014 National 
Climate Assessment, assumes rapid ice sheet loss and projects a global 
average sea level rise of 6.6 feet (2.0 m) above 1992 levels by the end 
of this century. This scenario is considered most applicable in 
situations with a low tolerance for risk. This makes it most suitable 
for estimating the scale of risk to residential properties, which 
typically represent a homeowner's greatest single asset. For more on 
our data and methodology, please see: https://www.ucsusa.org/sites/
default/files/attach/2018/06/underwater-analysis-full-report.pdf and 
https://www.ucsusa.org/sites/default/files/attach/2018/06/underwater-
analysis-technical-backgrounder.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The properties at risk by 2045 currently house 550,000 people and 
contribute nearly $1.5 billion toward today's property tax base. Those 
numbers jump to about 4.7 million people and $12 billion by 2100 (see 
---------------------------------------------------------------------------
figure 3).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    States with the most homes at risk by the end of the century are 
Florida, with about 1 million homes (more than 10% of the state's 
current residential properties); New Jersey, with 250,000 homes; and 
New York with 143,000 homes.
    The declining value of coastal homes will be damaging, even 
devastating, to individual homeowners. It will also have more 
widespread consequences, including for affected communities, lenders, 
investors, and taxpayers. Falling property values mean reduced local 
tax revenue from those properties. Our calculations show that in about 
120 communities along US coasts, the properties that would be at-risk 
in 2045 currently represent a full 20 percent or more of the local 
property tax base. Many coastal residents, whether they own homes or 
not, would be affected as property tax bases shrink, which typically 
leads to reduced services or tax hikes for remaining taxpayers. This 
could prevent cities and towns from fully funding schools, emergency 
services, and the maintenance and new construction of infrastructure--
including critical adaptation measures that could help protect homes, 
businesses, and infrastructure itself from chronic flooding. Access to 
additional capital for such projects depends on a municipality's credit 
rating; its credit rating depends on its financial health and degree of 
risk exposure, both of which are compromised as chronic flooding 
worsens. Mortgages on homes that could be chronically flooded during 
the term of the loan are inherently riskier, exposing lenders to 
losses.
    Communities with fewer resources to start with, or that are 
otherwise disadvantaged, will likely be most heavily affected by 
chronic flooding and its accompanying financial losses. Nearly 175 
communities nationwide can expect significant chronic flooding by 2045, 
with 10 percent or more of their housing stock at risk. Of those, 
nearly 40 percent--or 67 communities--currently have poverty levels 
above the national average. The largest share of these is in Louisiana, 
where there are 25 communities with above-average poverty rates and 
with 10 percent or more of the homes at risk by 2045. Louisiana is not 
the only state where poverty and exposure to chronic inundation 
intersect to create a hotspot of heightened risk. North Carolina, New 
Jersey, and Maryland also have significant numbers of highly exposed 
communities with above-average rates of poverty (see Figure 4). Within 
the next 30 years, about a dozen such communities along Maryland's 
eastern shore are projected to have one-third or more of their property 
tax base at risk.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These results do not include future development or new homes, nor 
do they include the impacts on critical infrastructure such as roads, 
bridges, power plants, airports, ports, public buildings, and military 
bases that will also be in harm's way. When all of these are taken 
together, the effects of chronic flooding could have staggering 
economic impacts.
    UCS also developed an interactive map tool that lets you explore 
the risk sea level rise poses to homes in your congressional district 
and provides district-specific fact sheets about those risks.\2\ What 
our maps show is that rising seas will begin to reshape many coastal 
communities in the coming decades, in some cases quite drastically. 
Communities need representatives in Congress who will advocate for the 
research, funding, and policies needed to help them cope with sea level 
rise and coastal flooding head-on. In some cases, that will include 
help with relocation to safer ground.
---------------------------------------------------------------------------
    \2\ Interactive map, data and fact sheets for all coastal 
Congressional districts in the 
lower 48 states available here: https://ucsusa.maps.arcgis.com/apps/
MapJournal/index.html?appid=b53e9dd7a85a44488466e1a38de87601.
---------------------------------------------------------------------------
    Our research also points to the choices we face: If the global 
community adheres to the primary goal of the Paris Agreement of capping 
warming below 2+C, and with limited loss of land-based ice, by the end 
of the century the United States could avoid losing residential 
properties that are currently valued at $780 billion, contribute $10 
billion annually in property tax revenue, and house 4.1 million people.
            impacts of sea level rise on rail infrastructure
    We also used our data and methodology to assess the risks of 
chronic flooding to Amtrak's Northeast corridor route between Boston 
and Washington, one of the most heavily travelled rail routes in our 
nation. Our maps were used in a Bloomberg story on this subject, Rising 
Waters Are Drowning Amtrak's Northeast Corridor.\3\
---------------------------------------------------------------------------
    \3\ https://www.bloomberg.com/graphics/2018-amtrak-sea-level/.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Many parts of the Northeast Corridor rail route are at risk of 
chronic flooding starting by 2060, including sections near Wilmington, 
Delaware, and throughout Connecticut, New Jersey, and New York (see 
figure 5). Current preparation efforts fall far short of these 
realities.
            impacts of sea level rise on u.s. military bases
    UCS has also analyzed the exposure of 18 military installations 
along the East and Gulf coasts to more frequent and extensive tidal 
flooding, land loss as some areas flood with daily high tides, and 
deeper and more extensive storm surge inundation.\4\ In the absence of 
preventive measures, these sites, including bases in Virginia, Georgia 
and Florida face major risks:
---------------------------------------------------------------------------
    \4\ https://www.ucsusa.org/global-warming/science-and-impacts/
impacts/sea-level-rise-flooding-us-military-bases.
---------------------------------------------------------------------------
    <bullet> By 2050, most of the installations we analyzed will see 
more than 10 times the number of floods they experience today.
    <bullet> By 2070, half of the sites could experience 520 or more 
flood events annually--the equivalent of more than one flood daily.
    <bullet> By 2100, eight bases are at risk of losing 25 percent to 
50 percent or more of their land to rising seas.
    <bullet> Four installations--Naval Air Station Key West, Joint Base 
Langley-Eustis, Dam Neck Annex, and Parris Island--are at risk of 
losing between 75 and 95 percent of their land by the end of this 
century (see figure 6).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        flooding and exposure to toxics during hurricane harvey
    Hurricane Harvey's unprecedented levels of rainfall--which 
scientists have linked to warmer air and oceans caused by climate 
change \5\--exacted a huge toll on the residents of Texas and 
Louisiana. In the wake of this storm, UCS analysis showed that more 
than 650 energy and industrial facilities may have been exposed to 
Hurricane Harvey's floodwaters.\6\
---------------------------------------------------------------------------
    \5\ Risser, M.D. and M. F. Wehner. 2017. Attributable Human-Induced 
Changes in the Likelihood and Magnitude of the Observed Extreme 
Precipitation during Hurricane Harvey. Geophysical Research Letters. 
Volume 44, Issue24 28 December 2017 Pages 12,457-12,464. https://
doi.org/10.1002/2017GL075888. Trenberth, K. E., Cheng, L., Jacobs, P., 
Zhang, Y., & Fasullo, J. (2018). Hurricane Harvey links to ocean heat 
content and climate change adaptation. Earth's Future, 6. https://
doi.org/10.1029/ 2018EF000825.
    \6\ https://blog.ucsusa.org/kristy-dahl/flooded-by-hurricane-
harvey-new-map-shows-energy-industrial-and-superfund-sites.
---------------------------------------------------------------------------
    To highlight these facilities, the Union of Concerned Scientists 
developed an interactive tool showing affected sites. The tool relies 
on satellite data analyzed by the Dartmouth Flood Observatory to map 
the extent of Harvey's floodwaters, and facility-level data from the US 
Energy Information Administration and the Environmental Protection 
Agency.
    The tool includes several types of energy infrastructure 
(refineries, LNG import/export and petroleum product terminals, power 
plants, and natural gas processing plants), as well as wastewater 
treatment plants and three types of chemical facilities identified by 
the EPA (Toxic Release Inventory sites, Risk Management Plan sites, and 
Superfund sites).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Gulf Coast is home to a vast chemical industry. The EPA's Toxic 
Release Inventory (TRI) program lists over 4,500 facilities in Texas 
and Louisiana alone that are required to report chemical releases to 
the environment.
    Before the storm hit, many facilities shut down preemptively, 
releasing toxic chemicals in the process. In the wake of the storm, 
explosions at Arkema's Crosby facility highlighted the risks that 
flooding and power failures pose to the region's chemical facilities 
and, by extension, the health of the surrounding population.
    In the Houston area, low-income communities and communities of 
color are disproportionately exposed to toxic chemicals. Our analysis 
shows that over 160 TRI facilities, at least seven Superfund sites, and 
over 30 facilities registered with EPA's Risk Management Program were 
potentially exposed to floodwaters. The number of flooded Superfund 
sites may be even higher than the map shows, as indicated by 
preliminary reports from the EPA and other sources.
    Though most of the impacts from this exposure remain unknown, the 
risks include compromised facilities and the release of toxins into the 
air and receding floodwaters.
Energy infrastructure
    In the week after Hurricane Harvey reached the Texas coast, 
disruptions to the region's energy infrastructure caused gas prices to 
rise nationally by more than 20 percent. Our analysis found that more 
than 40 energy facilities may have been exposed to flooding, 
potentially contributing to disruptions in operations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Wastewater treatment infrastructure
    Wastewater treatment facilities comprised the bulk of the 
facilities (nearly 430) that we identified as potentially exposed to 
flooding. The EPA monitored the quality and functionality of water 
systems throughout the region and reported that more than half of the 
wastewater treatment plants in the area were fully operational as of 
September 3, roughly nine days after the storm made landfall.
    With floodwaters widely reported as being contaminated with toxic 
chemicals and potent bacteria, wastewater treatment facilities were 
likely contending with both facility-level flooding and a heightened 
need to ensure the potability of treated water.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   growing risks from inland flooding
    Climate change is also shifting rainfall patterns, making heavy 
rain heavier and more frequent in many areas of the country. With human 
alteration of the land--like the engineering of rivers, the destruction 
of natural protective systems, increased construction on floodplains, 
and increased area of impermeable surface--many parts of the United 
States are at greater risk of experiencing destructive and costly 
floods.\7\
---------------------------------------------------------------------------
    \7\ https://www.ucsusa.org/sites/default/files/attach/2018/07/gw-
fact-sheet-epif.pdf.
---------------------------------------------------------------------------
    This spring alone has brought extended flooding to many parts of 
the country, including Louisiana, Texas, the Midwest and the central 
part of the country along the Mississippi and Missouri rivers. NOAA 
data confirm that (at the end of April 2019) the US has just 
experienced the wettest 12 months on record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This\ \record-breaking flooding has washed out roads and bridges in 
many places, sometimes for days on end, making it difficult for people 
to travel safely to work and school.\9\ In Nebraska alone, the flooding 
caused an estimated $100 million in damage to the state's highway 
system.\10\
---------------------------------------------------------------------------
    \8\ https://www.ncdc.noaa.gov/temp-and-precip/us-maps/1/201904#us-
maps-select.
    \9\ https://www.washingtonpost.com/nation/2019/05/10/really-
genuinely-scary-torrential-rain-houston-strands-cars-leaves-thousands-
without-power/?utm--term=.9612e14621c9.
    https://kfor.com/2019/05/08/odot-several-highways-closed-due-to-
flooding-across-the-state/.
    https://www.wxyz.com/getting-around-metro-detroit/flooding-across-
metro-detroit-closes-several-roads-highways.
    \10\ https://dot.nebraska.gov/news-media/nebraska-flood-2019/.
---------------------------------------------------------------------------
    Rail lines in Nebraska and Missouri were shut down for weeks.\11\ 
Businesses that rely on safe and reliable transportation have also been 
affected.\12\
---------------------------------------------------------------------------
    \11\ https://www.grainnet.com/article/166508/transportation-
impacts-of-midwest-flooding.
    https://www.freightwaves.com/news/railroad/rail-volumes-drop-for-
march-30.
    \12\ https://www.mprnews.org/story/2019/04/21/flooding-roundup-
communities-weary.
---------------------------------------------------------------------------
    A growing body of evidence has linked specific extreme rainfall 
events to human-caused climate change. The record-breaking rainfall 
during Hurricane Harvey that brought devastating flooding to Houston, 
for example, was made about three (1.5-5) times more likely and around 
15% (8-19%) more intense because of human-caused climate change.\13\ 
Human-caused climate change also made the devastating rains in 
Louisiana in 2016--in which more than two feet of rain fell in a two-
day period--more likely. A study of that particular event concluded 
that such downpours are expected to occur 40 percent more often and be 
10 percent more intense now than they were before the Industrial 
Revolution.\14\ Projections of future climate suggest that the 
frequency and intensity of extreme precipitation events will continue 
to increase across much of the United States in the coming decades.\15\
---------------------------------------------------------------------------
    \13\ van Oldenborgh, G.J., K. van der Wiel, A. Sebastian, R. Singh, 
J. Arrighi, F. Otto, K. Haustein, S. Li, G. Vecchi, and H. Cullen. 
2017a. Attribution of extreme rainfall from Hurricane Harvey, August 
2017. Environmental Research Letters 12(12):1-11. doi:10.1088/1748-
9326/aa9ef2.
    \14\ van der Weil, K., S.B. Kapnick, G.J. van Oldenborgh, K. Whan , 
S. Philip, G.A. Vecchi, R.K. Singh, J. Arrighi , and H. Cullen. 2017. 
Rapid attribution of the August 2016 flood-inducing extreme 
precipitation in south Louisiana to climate change. Hydrol. Earth Syst. 
Sci., 21, 897-921, 2017 www.hydrol-earth-syst-sci.net/21/897/2017/ 
doi:10.5194/hess-21-897-2017. Online at https://www.hydrol-earth-syst-
sci.net/21/897/2017/hess-21-897-2017.pdf.
    \15\ Easterling, D.R., K.E. Kunkel, J.R. Arnold, T. Knutson, A.N. 
LeGrande, L.R. Leung, R.S. Vose, D.E. Waliser, and M.F. Wehner. 2017. 
Precipitation change in the United States. In Climate science special 
report: Fourth national climate assessment, volume 1, fourth edition, 
edited by D.J. Wuebbles, D.W. Fahey, K.A. Hibbard, D.J. Dokken, B.C. 
Stewart, and T.K. Maycock. Washington, DC: US Global Change Research 
Program, 207-230. doi:10.7930/J0H993CC.
    Intergovernmental Panel on Climate Change (IPCC). 2012. Summary for 
policymakers. In Managing the risks of extreme events and disasters to 
advance climate change adaptation: Summary for policymakers, edited by 
C.B. Field, V. Barros, T.F. Stocker, D. Qin, D.J. Dokken, K.L. Ebi, 
M.D. Mastrandrea, K.J. Mach, G.-K. Plattner, S.K. Allen, M. Tignor, and 
P.M. Midgley. Cambridge, UK, 1-19. Online at http://www.ipcc.ch/pdf/
special-reports/srex/SREX_FD_SPM_final.pdf.
---------------------------------------------------------------------------
    water, wastewater and septic systems at risk from climate change
    Rising sea levels and extreme storms are also making water, 
wastewater and septic tank systems more prone to damage or failure, 
including in coastal Florida, North Carolina, South Carolina and 
Maryland. Studies show that tidal flooding, storm surges, heavy 
rainfall, and saltwater intrusion pose risks to coastal infrastructure, 
human health and the environment, and efforts to address these 
challenges could cost billions of dollars.\16 17 18 19\
---------------------------------------------------------------------------
    \16\ T.R. Allen, T. Crawford, B. Montz. 2018. Linking Water 
Infrastructure, Public Health, and Sea Level Rise: Integrated 
Assessment of Flood Resilience in Coastal Cities. Public works 
management and policy. Vol 24, Issue 1, 2019. https://doi.org/10.1177/
1087724X18798380.
    \17\ Septic systems vulnerable to sea level rise. November 2018. 
Final Report in support of Resolution No. R-911-16. By the Miami-Dade 
County Department of Regulatory & Economic Resources, Miami-Dade County 
Water and Sewer Department & Florida Department of Health in Miami-Dade 
County.
    \18\ Mihaly, E. 2018. Avoiding Septic Shock: How Climate Change Can 
Cause Septic System Failure and Whether New England States are 
Prepared. Ocean and Coastal Law Journal Volume 23, Number 1 Article 2 
January 2018. https://digitalcommons.mainelaw.maine.edu/cgi/
viewcontent.cgi?article=1359&context=oclj
    \19\ Harris, A. A $3 billion problem: Miami--Dade's septic tanks 
are already failing due to sea rise. Miami Herald, January 10, 2019. 
https://www.miamiherald.com/news/local/environment/
article224132115.html.
---------------------------------------------------------------------------
                public health impacts of climate change
    Climate change will have profound effects on human health. See 
Figure 8 for a conceptual diagram from the National Climate Assessment 
illustrating the exposre pathways by which climate change could effect 
human health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Drawing from the National Climate Assessment, I highlight here some 
major health implications of climate change: \20\
---------------------------------------------------------------------------
    \20\ See Chapter 14: Human Health in the Fourth National Climate 
Assessment, and references therein. Online at https://
nca2018.globalchange.gov/chapter/14/.
---------------------------------------------------------------------------
    <bullet> High temperatures in the summer are conclusively linked to 
an increased risk of a range of illnesses and death, particularly among 
older adults, pregnant women, and children. Studies show that other 
vulnerable populations include low-income households especially those 
in urban areas, outdoor workers, athletes, those with pre-existing 
health conditions, the homeless and the incarcerated.\21\
---------------------------------------------------------------------------
    \21\ See Union of Concerned Scientists. 2018. Heat Waves and 
Climate Change: What the Science Tells us about extreme heat Events. 
Online at https://www.ucsusa.org/sites/default/files/attach/2018/08/
extreme-heat-science-fact-sheet.pdf; Union of Concerned Scientists. 
2018. Health Risks and Impacts of Extreme Heat. Online at https://
www.ucsusa.org/sites/default/files/attach/2018/08/extreme-heat-impacts-
fact-sheet.pdf.
---------------------------------------------------------------------------
    <bullet> Climate change is expected to alter the geographic range, 
seasonal distribution, and abundance of disease vectors, exposing more 
people in North America to ticks that carry Lyme disease or other 
bacterial and viral agents, and to mosquitoes that transmit West Nile, 
chikungunya, dengue, and Zika viruses.
    <bullet> Increasing water temperatures associated with climate 
change are projected to alter the seasonality of growth and the 
geographic range of harmful algae and coastal pathogens, and runoff 
from more frequent and intense rainfall is projected to increasingly 
compromise recreational waters and sources of drinking water through 
increased introductions of pathogens and toxic algal blooms. Research 
has shown that a combination of warming waters and increased rainfall 
bringing excess nutrients into freshwater lakes and rivers could lead 
to an increase in algal blooms that pose threats to humans and marine 
life, as well as affect water supplies and recreational activities.\22\ 
In the summer of 2018, a massive algal bloom affected over 100 miles 
along the Gulf Coast in southwestern Florida, and the widespread 
release of associated neurotoxins led to massive die offs of fish and 
other marine species. Algal blooms have also affected the Great Lakes.\ 
23\
---------------------------------------------------------------------------
    \22\ https://www.climate.gov/news-features/event-tracker/harmful-
algal-blooms-linger-parts-southern-florida-july-and-august-2018. 
Chapra, S.C.; Boehlert, B.; Fant, C.; Bierman Jr., V.J.; Henderson, J.; 
Mills, D.; Mas, D.M.L.; Rennels, L.; Jantarasami, L.; Martinich, J.; 
Strzepek, K.M.; & Paerl, H.W. (2017). ``Climate change impacts on 
harmful algal blooms in U.S. freshwaters: a screening level 
assessment.'' Environmental Science and Technology 51, 8933-8943 
(2016). Paerl, Hans W., and Valerie J. Paul. ``Climate change: Links to 
global expansion of harmful cyanobacteria.'' Water res. 46, 1349-1363 
(2012).
    \23\ See, for example: https://www.washingtonpost.com/news/capital-
weather-gang/wp/2018/08/14/how-climate-change-is-making-red-tide-algal-
blooms-even-worse/?utm_term=.820a42b60d02.
---------------------------------------------------------------------------
    <bullet> Projected increases in extreme precipitation and flooding, 
combined with inadequate water and sewer infrastructure, can contribute 
to viral and bacterial contamination from combined sewage overflows and 
a lack of access to potable drinking water, increasing exposure to 
pathogens that lead to gastrointestinal illness.
    <bullet> Climate change, including rising temperatures and changes 
in some extreme weather and climate events, can adversely affect global 
and U.S. food security by, for example, threatening food safety (by 
altering exposures to certain pathogens and toxins), disrupting food 
availability, decreasing access to food, and increasing food prices. 
Food quality also is expected to be affected by rising CO2 
concentrations that decrease dietary iron, zinc, protein, and other 
macro- and micronutrients in crops and seafood.
    <bullet> Mental health consequences, ranging from minimal stress 
and distress symptoms to clinical disorders, such as anxiety, 
depression, post-traumatic stress, and suicidality, can result from 
exposures to short-lived or prolonged climate- or weather-related 
events and their health consequences. These mental health impacts can 
interact with other health, social, and environmental stressors to 
diminish an individual's well-being. Some groups are more vulnerable 
than others, including the elderly, pregnant women, people with 
preexisting mental illness, the economically disadvantaged, tribal and 
Indigenous communities, and first responders.
    Additionally, the Lancet Countdown on health and climate change 
provides an independent, global monitoring system dedicated to tracking 
the health dimensions of the impacts of, and the response to, climate 
change and includes a special brief for the United States.\24 25\
---------------------------------------------------------------------------
    \24\ Watts, N. et al. 2018. The 2018 report of the Lancet Countdown 
on Health and Climate Change: Shaping the health of nations for 
centuries to come. Online at https://www.thelancet.com/journals/lancet/
article/PIIS0140-6736(18)32594-7/fulltext.
    \25\ Lancet Countdown, 2018: 2018 Lancet Countdown on Health and 
Climate Change Brief for the United State of America. Salas RN, 
Knappenberger P, Hess JJ. Lancet Countdown U.S. Brief, London, United 
Kingdom, 32 pp Online at http://www.lancetcountdown.org/media/1426/
2018-lancet-countdown-policy-brief-usa.pdf.
---------------------------------------------------------------------------
                      responding to climate change
    The grave risks climate change poses to our nation require an 
urgent response from federal, state and local policymakers, as well as 
market actors, to help protect communities and build resilience. 
Important priorities for resilience include:
    <bullet> The federal government must play a lead role in 
communicating risks to the public and incorporating those risks into 
its own policies and actions. Flood-risk disclosure in the marketplace 
is also vital to help individuals and businesses understand the risks 
to their investments and drive more resilient outcomes.
    <bullet> We must fund post-disaster recovery adequately and in an 
expeditious way so that aid can flow to hard-hit communities quickly 
and equitably, and in a way that helps build resilience to future 
events.
    <bullet> Post-disaster investments should be made with a view to 
reducing future risks through a range of protective measures, including 
home buyouts and investments in flood-proofing measures, particularly 
in low to middle income communities and as appropriate, a requirement 
for adequate insurance coverage.
    <bullet> We have to get out ahead of risks and not just respond in 
the aftermath of disasters, by ramping up investments in FEMA's pre-
disaster hazard mitigation grants--including the Building Resilient 
Infrastructure and Communities (BRIC) program \26\--and flood 
mitigation assistance programs, and the community development block 
grant program administered by the US Department of Housing and Urban 
Development (HUD). Research shows that every $1 invested can save the 
nation $6 in future disaster costs.\27\
---------------------------------------------------------------------------
    \26\ Under the recently passed Disaster Recovery Reform Act (DRRA), 
this grant program will be funded through the Disaster Relief Fund as a 
six percent set aside from estimated disaster grant expenditures.
    \27\ Multihazard Mitigation Council. 2018. Natural Hazard 
Mitigation Saves: 2018 Interim Report. Principal Investigator Porter, 
K.; co-Principal Investigators Scawthorn, C.; Huyck, C.; Investigators: 
Eguchi, R., Hu, Z.; Reeder, A; Schneider, P., Director, MMC. National 
Institute of Building Sciences, Washington, D.C. www.nibs.org.
---------------------------------------------------------------------------
    <bullet> The National Flood Insurance Program requires commonsense 
reforms to the program to ensure that it more effectively maps and 
communicates all types of current and future flood risks, protects and 
insures communities in an equitable way, and promotes better floodplain 
management.\28\
---------------------------------------------------------------------------
    \28\ https://blog.ucsusa.org/rachel-cleetus/congress-must-extend-
and-reform-the-national-flood-insurance-program.
---------------------------------------------------------------------------
    <bullet> A robust federal flood risk management standard would help 
protect vital federally funded infrastructure, ensure wise use of 
taxpayer dollars, and set a valuable guidepost for communities.
    <bullet> Federal, state and local resources will be necessary to 
cope with and prepare for the health impacts of climate change.
    <bullet> Congress should set up a diverse and inclusive expert 
advisory body to provide guidance on infrastructure that not only 
accounts for climate change but historic injustices as well, by 
targeting investments in underserved and marginalized communities.\29\
---------------------------------------------------------------------------
    \29\ Union of Concerned Scientists. 2019. Building Equitable, 
Clean, and Climate-Safe Infrastructure. Online at https://
www.ucsusa.org/sites/default/files/attach/2019/03/climate-resilient-
infrastructure-fact-sheet.pdf.
---------------------------------------------------------------------------
    <bullet> Strengthened state and local building and zoning 
regulations--as well as coastal zone management regulations that 
protect wetlands, barrier islands, and other natural systems that 
reduce flood impacts--are needed to ensure flood-smart development
    <bullet> Increased funding for voluntary home buyout programs 
administered by FEMA and HUD can also help homeowners move to safer 
locations. Communities in high-risk areas may also increasingly need 
relocation grants and technical assistance. Correspondingly, 
communities receiving an influx of new residents may need financial 
resources.
    <bullet> Banks, insurers, real estate investors, developers, and 
other major financial actors in coastal areas should establish 
guidelines and standards to incorporate the risks of sea level rise in 
their business models, thus better serving the long-term economic 
interests of their clients.
    Most importantly, we must make deep cuts in heat-trapping emissions 
to contribute to global efforts to limit climate change. Adaptation is 
costly, and there are limits to how much change we can adapt to, so we 
need to do our utmost to also mitigate carbon emissions with the goal 
of limiting the resilience gap for communities (see figure 13). 
Transitioning to a low-carbon economy--by investing in renewable 
energy, energy efficiency and other low-and zero-carbon energy 
options--and reaching net zero carbon emissions by mid-century would 
not only help address climate change, it will deliver tremendous near-
term public health and economic benefits.\30\ Contributing to global 
efforts, including by helping developing countries make a low-carbon 
energy transition and cope with and build resilience to the impacts of 
climate change, is also vital.
---------------------------------------------------------------------------
    \30\ Watts, N. et al. 2018. The 2018 report of the Lancet Countdown 
on Health and Climate Change: Shaping the health of nations for 
centuries to come. Online at https://www.thelancet.com/journals/lancet/
article/PIIS0140-6736(18)32594-7/fulltext.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                closing
    In closing, I am here today both as an expert who has studied these 
issues for a long time, and as a Mom. I have two young children who are 
11 and 13 years old. Like many of you with young people in your lives, 
I am acutely aware that the choices we make today--choices that you in 
Congress are uniquely empowered to help make--will be deeply 
consequential to their future. I hope we will seize the opportunity to 
leave our children and grandchildren a world where they can prosper 
without fear of runaway climate change. Thank you for this opportunity 
to testify and for your leadership on climate action.

    Ms. Castor. Thank you.
    Mr. Hodges, you are recognized for 5 minutes.

                   STATEMENT OF KEITH HODGES

    Mr. Hodges. Thank you.
    Good morning, Chairwoman Castor, Ranking Member Graves, and 
members of the select committee. My name is Keith Hodges, and I 
represent the 98th District in the Virginia House of Delegates, 
located in the heart of Virginia's rural coastal region. I also 
have the distinct pleasure of serving as the co-chair for the 
Virginia General Assembly Joint Commission on Coastal Flooding, 
and serve as a member of the General Assembly State Water 
Commission.
    I am here today to paint a picture, a picture of the real 
impacts coastal flooding is having on our rural suburban and 
urban areas of the commonwealth. My constituents are already 
feeling the impacts. One of the smallest localities in my 
district and in the Commonwealth, Mathews County, has just 
9,000 people, but has already suffered $65 million loss of land 
value directly and indirectly due to flooding. The loss of land 
impacts--not only impacts the property owners, but means less 
tax revenue is available for critical public services such as 
police, fire, and schools.
    I will also outline the challenges we face in mitigating 
the effect of water, the layers of government regulations that 
stand in between property owners and their ability to protect 
themselves, and the innovative solutions being developed to 
address it; solutions that ultimately could be applied in any 
coastal region in the Nation.
    We can all agree that the Commonwealth's signature water 
quality protection legislation, the Chesapeake Bay Preservation 
Act, dating back to the late 1980s, was needed and is 
responsible for the significant improvements that have made 
over time, the cleanup of our most important waterways on the 
East Coast.
    A large portion of the Preservation Act regulated the 
riparian areas, generally where the tidal wetlands and the 
upland areas converge. It was written to protect the natural 
spaces around the waterways, preventing overdevelopment, and 
protecting water quality. That was on paper. But in reality, a 
great deal of those areas are peoples' yards. It is where 
peoples' lives are. It is where they grill out. It is their 
homes. It is their sense of place. That is where we are seeing 
the flooding. And that is where we are seeing layer upon layer 
of additional government regulations.
    There is a disconnect between where the laws are, laws that 
prevents any sort of resiliency efforts being done, and where 
the people live. It is important to note here that many of 
these laws were intended to manage water running off from a 
higher elevation, the land, and into the lower elevation, the 
sea. It never realized that we could be facing water coming 
from a lower elevation to a higher elevation, bringing the 
river into people's yards. It doesn't make it right. It doesn't 
make it wrong. It is just reality.
    We have identified 23 laws and regulations that protect 
water quality. While well intended, they are also holding us 
back. In the Commonwealth of Virginia, specifically in the 
rural coastal Virginia, we have been studying ways to both 
adhere to the spirit of the Preservation Act and other 
regulations and the goals to maintain water quality, while also 
helping property owners protect their homes, localities protect 
their tax base and promote resiliency.
    It started with looking at legislation and regulations in a 
more wholistic and innovative way. We found ways to help 
property owners, residential and commercial, installing living 
shorelines, proven to help water quality, resiliency, and 
providing the funding and insurance to bring them to reality. 
We are building shorelines that are bigger, that are wider, and 
that are taller.
    We have addressed storm water legislation and equalized the 
cost for developers building in rural versus urban areas. We 
have created ways through the Virginia Waterway Maintenance 
Fund to give localities more options to use dredge materials 
for resiliency efforts. We are looking at how to ensure risk 
more properly and creatively; that is, ensuring nature-based 
flood mitigation strategies.
    And we are fighting the flood with a new campaign set to 
launch this year where we are bringing together a consumer need 
for solutions with the marketplace. We are connecting them 
together and making it cheaper for property owners to protect 
themselves.
    Perhaps most innovatively, we are also leveraging 
intellectual capital around the issue. Thanks to the GO 
Virginia legislation, we have funded a project to study ways to 
harness and focus that intellectual capital. Water goes 
everywhere. It doesn't discriminate whether you are rural, 
suburban, or urban. We have opted to look at it as an asset, 
not a liability. We are looking at it as a relationship versus 
something that is detrimental. We are reframing the way we 
approach water management.
    When you reframe the way you approach water management, you 
can come at it from a more wholistic, economic perspective. You 
can create jobs and you can protect livelihoods. We are not 
sitting back and complaining about the problem. We are looking 
at it as something that is not going away. We are creating an 
opportunity. The opportunity requires us all to work together 
to address the challenges, to find the innovative solutions 
from here in Washington, to Richmond, and the localities where 
constituents live, where they work, and where they play.
    Thank you for the opportunity to discuss this important 
issue here today and for helping us all see that working 
together will benefit us all. As they say, a rising tide lifts 
all ships.
    Thank you, Madam Chair.
    [The statement of Mr. Hodges follows:]

                   Testimony of Delegate Keith Hodges

               Virginia House of Delegates, 98th District

              House Select Committee on the Climate Crisis

                ``Creating a Climate Resilient America''

                              May 23, 2019

    Good Morning Chairwoman Castor, Ranking Member Graves, and the 
members of the Select Committee. My name is Keith Hodges and I 
represent the 98th District, located in the heart of rural coastal 
Virginia, in the Virginia House of Delegates. I also have the distinct 
pleasure of serving as the Co-Chair for the Virginia General Assembly 
Joint Subcommittee on Coastal Flooding and serve as a member of the 
General Assembly State Water Commission.
    I am here today to paint a picture of the real impacts coastal 
flooding is having on our rural, suburban and urban areas of the 
Commonwealth. My constituents are already feeling the impacts. One of 
the smallest localities in my district--Mathews County--has just 9,000 
people but has already suffered a $65 million dollar loss of land value 
directly and indirectly due to flooding. The loss of land value impacts 
not only property owners, but means less tax revenue is available for 
critical public services such as police, fire, and schools.
    I will also outline the challenges we face in mitigating the effect 
of water, the layers of government regulations that stand in between 
property owners and their ability to protect themselves, and the 
innovative solutions being developed to address it--solutions that 
ultimately could be applied in any coastal region of the nation.
    We can all agree that the Commonwealth's signature water quality 
protection legislation--the Chesapeake Bay Preservation Act, dating 
back to the late 1980s--was needed and is responsible for the 
significant improvements that have been made over time to the clean-up 
of our most important waterways on the East Coast.
    A large part of the preservation part of the act regulated the 
riparian areas, generally where the tidal wetlands and the uplands 
converge.
    It was written to protect the natural spaces around the waterways, 
preventing over development and protecting water quality.
    That was on paper.
    But in reality, a great deal of those areas are people's yards. 
It's where people's lives are. Where they grill out. It's their homes. 
Their sense of place.
    That's where we're seeing flooding. And that's where we're seeing 
layers upon layers of additional government regulations.
    There is a disconnect between where the laws are--laws that 
prevents any sort of resiliency efforts being done--and where people 
live.
    It's important to note here, that many of these laws were intended 
to manage water running off from a higher elevation--land--and into a 
lower elevation--the sea. It never realized that we would be facing 
water coming from a lower elevation to a higher elevation--bringing the 
rivers into people's yards.
    Doesn't make it right. Doesn't make it wrong. It's just reality.
    But these 23 laws and regulations that protect water quality, while 
well intended, are also holding us back.
    In the Commonwealth of Virginia--specifically in rural coastal 
Virginia--we have been studying ways to both adhere to the spirit of 
the Preservation Act and other regulations and the goals to maintain 
water quality, while also helping property owners protect their homes, 
localities protect their tax base and promote resiliency.
    It's started with looking at legislation and regulations in a more 
holistic and innovative way.
    We've found ways to help property owners--residential and 
commercial--install Living Shorelines, proven to help with water 
quality and resiliency, and provided the funding and insurance to bring 
them to reality. We're building shorelines that are more robust--
bigger, wider, taller.
    We've addressed stormwater legislation, and equalized the cost for 
developers building in rural vs urban areas.
    We've created ways--through the Virginia Waterway Maintenance 
Fund--to give localities more options to use dredged materials for 
resiliency efforts.
    We are looking at how you insure risk more properly, and 
creatively--that is, insuring nature based flood mitigation strategies.
    And we are fighting the flood with a new campaign set to launch 
this year, where we are bringing together the consumer need for 
solutions with the marketplace. We're connecting them together and 
making it cheaper for property owners to protect themselves.
    Perhaps most innovatively, we're also leveraging intellectual 
capital around this issue. Thanks to the Virginia Growth and 
Opportunity Fund, we have funded a project to study ways to harness and 
focus that intellectual capital.
    Water goes everywhere.
    It doesn't discriminate whether you are rural, suburban or urban.
    We have opted to look at it as an asset, not a liability.
    We are looking at it as a relationship verses something that is 
detrimental.
    We are reframing the way we approach water management.
    When you reframe the way you approach water management, you can 
come at it from a more holistic economic perspective. You can create 
jobs. You can protect livelihoods.
    We're not sitting back and complaining about the problem.
    We're looking at it as something that's not going away.
    We're creating opportunity.
    That opportunity requires us all to work together to address the 
challenges, to find the innovative solutions, from here in Washington, 
to Richmond and all the localities where our constituents live, work 
and play.
    Thank you for the opportunity to discuss this important issue here 
today, and for helping us all see that working together will benefit us 
all.
    As they say, a rising tide lifts all ships.

    Ms. Castor. Thank you.
    Mr. Russell, you are recognized for 5 minutes.

                   STATEMENT OF MATT RUSSELL

    Mr. Russell. Good morning. Chair Castor, Ranking Member 
Graves, members of the committee, thank you for the opportunity 
to talk about the opportunities and challenges for American 
farmers in our climate crisis. I am a fifth generation Iowa 
farmer, executive director of the Iowa Interfaith Power and 
Light, and we are an organization who works with Iowans to find 
and implement faith-based solutions to climate change. It is an 
honor to testify this morning on behalf of American farmers.
    A partial solution to the global climate crisis is right in 
front of us, if we just have the courage to embrace it. This 
solution will also help us clean our air and water, save our 
soils, stabilize our rural communities and our food system. 
That solution is to pay farmers for environmental services when 
we sequester carbon. Doing so will revolutionize both 
agriculture and environmental policy. These policies should no 
longer be in opposition. They should complement each other in 
strategic ways. Costs will be pennies per meal in the short 
run, but actually, this is not a cost at all. It is an 
investment in our children and grandchildren's future.
    We can help solve global warming by unleashing the power of 
American farmers to solve problems. It is what we do. 
Regardless where you are in America, if you are a farmer, on a 
daily basis you solve problems. When the rain is coming and the 
hay is down and the bailer is broken, you are underneath of it 
fixing it. If you are in the orchard and you are dealing with 
disease, we solve problems.
    The question today isn't do you believe in climate change. 
The question is, do you believe in American farmers, in our 
ability to innovate when confronted with major challenges. By 
including agriculture in this hearing, it is clear this 
committee wants to start investing in American farmers.
    Paying farmers to capture carbon is an effective way to 
slow climate change and make our farmers more resilient to 
extreme weather. Carbon farming will also increase 
productivity, build soil, improve air and water quality, and 
increase economic opportunity in our rural communities.
    At Iowa Interfaith Power and Light, we are gathering 
farmers in church basements to talk about climate action. These 
farmers are ready to help solve climate change. They point out 
the current combination of public policy and markets creates a 
situation where farmers investing in better conservation and 
stewardship actually carry a greater burden of risk than 
farmers who are willing to shortchange long-term stewardship 
for short-term profits.
    In the face of these distorted policy and market signals, 
more and more farmers are ready to help tackle this climate 
crisis. Last century, the population bomb was the greatest 
challenge facing humanity. American farmers led the revolution 
that helped solve this problem. Our parents and grandparents 
partnered with researchers and agri-business to increase 
productivity that, not only delivered enough food, but lowered 
the cost of that food.
    The green revolution not only prevented a global disaster, 
it unleashed global growth that dramatically increased the 
quality and length of life for every human all throughout the 
world.
    We are at a similar pivotal moment in history. We are 
facing a catastrophic crisis. American farmers can again lead 
the world into a future that is even more abundant than our 
past. We have a mountain of research, powerful technological 
tools, and pioneering farmers across the country already 
starting to manage their farms to not only produce the goods 
the world demands, but to provide the environmental services 
this crisis requires.
    To do this, we must partner with the rest of America to 
leverage smart public policy and develop effective markets to 
reward innovation on our farms. Here are some ways you can help 
farmers lead the next agricultural revolution.
    Work with farmers to develop public policy that encourages 
farmer and market-led solutions to--for climate action. 
American farmers, we are at our best when we yoke smart public 
policy and the power of capitalism. As the world begins to put 
a price on carbon, let's make sure American farmers can claim 
some of the value of what we do on our farms when providing 
climate change mitigation services.
    Embrace the opportunities climate action holds for rural 
development. Rural America is where energy is produced and 
agricultural products are grown. Every farmer in every part of 
this country can benefit from helping solve the climate crisis.
    Rethink the politics of climate. If resources remain 
focused on the politics, we all lose. But if we bring the very 
best Democratic ideas and the very best Republican ideas 
together, we can--our rural communities will be more resilient 
to extreme weather, can hold onto the value of capturing 
carbon, and can generate clean energy.
    Everyone says we need bipartisan solutions; incentivizing 
farmers to lead on climate action is an opportunity to make 
that happen. Investing in American farmers is hands down one of 
the fastest and most effective ways for climate action.
    Thank you for your time.
    [The statement of Mr. Russell follows:]

                   Written Testimony of Matt Russell

           Executive Director, Iowa Interfaith Power & Light

          Hearing on ``Creating a Climate Resilient America''

       United States House Select Committee on the Climate Crisis

                              May 23, 2019

    Chair Castor, Ranking Member Graves, and members of this committee, 
thank you for the opportunity to speak about the challenges and 
opportunities for American farmers in the midst of our climate crisis. 
As a 5th generation Iowa farmer, member of multiple farm organizations, 
and the executive director of Iowa Interfaith Power and Light, an 
organization working to help Iowans find and implement faith-based 
solutions to climate change, it's a tremendous honor and great 
responsibility to testify on behalf of American farmers.
    A partial solution to the global climate crisis is right in front 
of us--we just have to have the courage to embrace it. This solution to 
rising CO2 levels will also help us clean our water and air, save our 
soils, and stabilize our food system and rural economies. That solution 
is to pay farmers for environmental services they render in building 
soil health and sequestering carbon. Doing so will revolutionize both 
agricultural and environmental policy. Unlike the current 
configuration, these policies should no longer be in opposition--they 
should complement each other in strategic ways. Costs will be pennies 
per meal for the short term--but actually, it isn't a cost at all. It's 
an investment. It's an investment in our children and grandchildren's 
future.
    We must start believing in American farmers. We can solve global 
warming by unleashing the power of American farmers to solve problems. 
It's what we do on a daily basis. Regardless what we're producing on 
our own farms, we're all managing complex systems. We survive because 
we're masters at solving problems. The question today isn't ``do you 
believe in climate change.'' The question is do you believe in American 
farmers and their ability to innovate when confronted with major 
challenges?
    This committee is answering that question with a profound yes! By 
the very nature of including agriculture in this hearing, it's clear 
this committee wants to start investing in and empowering American 
farmers.
    On American farms, being more resilient to extreme weather and 
mitigating global warming by reducing greenhouse gas pollution and 
capturing carbon, can be the same thing, two sides of the same coin. 
Paying farmers to capture carbon, to develop carbon farming, is an 
effective way to slow climate change and make our farms more resilient 
to increasingly extreme weather.
    Carbon farming can increase productivity, build soil, improve air 
and water quality, and increase economic opportunities in our rural 
communities. This committee can help American farmers lead on climate 
action and to work with us to develop the incentives that reward us 
when we do.
    At Iowa Interfaith Power and Light, we're gathering farmers in 
church basements to talk about how their faith calls them to embrace 
climate action on their farms. These farmers, mostly conventional 
commodity and livestock farmers, are ready to act on climate change. 
They point out the current combination of public policy and markets 
creates a situation where farmers investing in better conservation and 
environmental stewardship carry a greater burden of risk than farmers 
who are willing to shortchange long term stewardship for short term 
profit. Despite these current distorted policy and market signals, and 
contrary to conventional wisdom, we're proving more and more farmers 
are ready to help solve this climate crisis. We farmers recognize that 
like our parents and grandparents before us, we must innovate on our 
farms to provide what the world demands.
    Last century, the population bomb was one of the greatest 
challenges facing humanity. American farmers led the revolution that 
helped solve this problem. Our parents and grandparents innovated and 
partnered with researchers and agri-business to unleash increased 
productivity that not only delivered enough food, but lowered the cost 
of that food. The Green Revolution not only prevented a global 
disaster, it unleashed global growth that dramatically increased the 
quality and length of human life touching every corner of the world.
    We're at a similar, pivotal moment in human history. We are facing 
a catastrophic crisis; the greatest crisis humans have ever faced. 
American farmers can again lead the world through this crisis and into 
a future that is even more abundant than our past. We have a mountain 
of scientific research, powerful technological tools, and pioneering 
and innovative farmers across the country already starting to manage 
their farms to not only produce the goods the world demands, but to 
provide the environmental services this crisis requires.
    There are no silver bullets for adapting to or mitigating climate 
change. American farmers understand complex systems and how to produce 
multiple benefits. We're ready to embrace the call to innovate on our 
farms to not only capture carbon and reduce emissions but to also 
increase productivity, build soil, improve air and water quality, and 
increase economic opportunities in our rural communities. What's 
missing is the call for our leadership and an investment in our 
innovation. That's what this committee can do. Call American farmers to 
lead on climate action and to work with us to develop the incentives 
that reward us when we do. If American farmers are going to lead the 
next agricultural revolution, we must partner with the rest of America 
to leverage smart public policy and develop effective markets to reward 
innovation on our farms.
    As a committee, here are some ways you can help farmers and rural 
Americans lead the next agricultural revolution.
    Work with farmers to develop smart public policy for farmer and 
market led climate action. American farmers are at our best when we 
yoke smart public policy with the power of capitalism. As the world 
begins to put a price on carbon, let's make sure American farmers can 
claim some of the value of what we do on our farms when providing 
climate change mitigation services.
    Embrace the opportunities climate action holds for rural 
development. One of the greatest strengths of American agriculture is 
that it's still made up of families managing small businesses. One 
reason American agriculture can move faster and more effectively than 
agriculture in some other parts of the world, is that the vast majority 
of land is still owned by individual Americans. Help unleash the power 
of capitalism to reward these entrepreneurs for developing the small 
businesses that can help defeat the climate crisis. Every farmer and 
every rural landowner in every state in the country can potentially 
benefit from helping solve the climate crisis. Rural America is where 
energy is generated and agricultural products are grown. That won't 
change as we transition into a clean energy economy. Let's make sure we 
empower farmers and rural Americans to reap the rewards as we make this 
transition.
    Rethink the politics of climate action. If resources remain focused 
on the politics, we all lose. But if we encourage farmers and rural 
Americans to bring the very best Democratic ideas and the very best 
Republican ideas together, our rural communities will be more resilient 
to extreme weather and can hold onto the value of capturing carbon. 
Everyone says we need bipartisan solutions. Incentivizing farmers and 
rural communities to lead on climate action is an opportunity to make 
that happen.
    The things farmers need to do to adapt to extreme weather are the 
very same things they need to do to develop carbon farming to help 
mitigate the climate crisis. The world has a limited time for climate 
action. America has to invest in expedient and cost-effective efforts 
to reduce emissions and capture carbon. Investing in American farmers 
is hands down one of the fastest and most effective ways for climate 
action. No other group of Americans is more threatened by climate 
change than farmers and at the same time more capable of providing 
solutions to help solve this climate crisis. We need your courage, and 
your leadership to fashion climate legislation that includes a robust 
section to pay farmers for performance-based agriculture and ecosystem 
services. American farmers, rural communities, our country, and the 
entire world is depending on your leadership.

    Ms. Castor. Well, thanks to all of our witnesses for your 
very compelling testimony.
    I recognize myself for 5 minutes for questions.
    Well, Mr. Russell, you caught my attention when you were 
talking about the dual benefits of climate action when it comes 
to our farmers across this country. And you highlighted some 
ways that we can reduce carbon pollution while supporting our 
agricultural economy, dual benefits, because we don't have time 
to go backwards. And we have to do these things, yes, in the 
short term, because while America, we have made progress on 
reducing carbon pollution, unfortunately, in 2018 our emissions 
went up. And as we have heard in our previous hearing, the U.S. 
and the world need to achieve net zero carbon emissions by 2050 
to avoid catastrophic climate impacts.
    So get a little more specific even than what you 
highlighted there at the end of your testimony on what we can 
do to encourage, incentivize farmers to help us reduce carbon 
pollution. And then talk about how this translates to American 
consumers and our food system here in the United States.
    Mr. Russell. Yeah. I will try to be brief in a general 
overview. Essentially, in the fossil fuel economy, we have used 
fossil fuels to do amazing things, and the green revolution was 
one of those. And we have used that to kind of force nature to 
do some particular things, and that was very successful. But in 
this new economy that we are moving into as a response to 
climate change, we have to think about how we farm differently.
    So instead of forcing nature to do particular things, we 
have to work with nature to come up with the benefits that we 
need. And this doesn't mean throwing out our agriculture 
systems. It means leaning into what we already have. So we have 
the policy tools to do this. Our farmers understand this and 
are already trying to--and our land grant universities are 
diving into this. But we have to unleash the power for them to 
do that and signal to them that we are going to support this 
more. Essentially, it means taking agricultural systems and 
stacking a number of environmental services.
    There are really five things that farmers can do across the 
country. It doesn't matter what kind of farm you are on. It is 
conservation tillage. How do we till the land as least as 
possible? Permaculture, how do we have something growing all 
the time? Cover crops is a big thing in the Midwest, is a 
category there. Integrating livestock into our agricultural 
systems. Managed grazing is a big piece of that, but it is all 
kinds of integrating, pork, poultry, dairy, all the livestock. 
How do we integrate that so that we are increasing the 
biological activity in the soil. We need to extend our crop 
rotations. So we have to add new crops into the mix.
    I think I got all four of them there. And the fifth thing 
then is renewable energy.
    And so when you stack all of those things together, it 
makes our rural economy, our farmers more resilient to the 
extreme weather, because soils can hold water when it rains and 
have water stored when it is dry. But it also then captures 
carbon and provides a service. So we can't do one or the 
other--I mean, we can, but we are not going to get the 
benefits. We do it at the same time, and we incentivize farmers 
and we partner with the research scientists. We can lead this 
like no other place on the planet. And if we don't, other 
farm--other agricultural systems in other parts of the world 
are going to do this in the next decade. It is ours to lose if 
we don't.
    Ms. Castor. Thank you very much.
    Dr. Cleetus, the Union of Concerned Scientists has done 
fantastic work on measuring the impacts of climate on our 
coastal communities. I am very sensitive to this, representing 
a coastal district in Florida. And I see the cost burden going 
up and up and up for the folks I represent in my State, whether 
it is flood insurance, property insurance, what local 
communities are having to do with fixing storm water and 
wastewater. I mean, the list goes on and on.
    But I want to shift here. One of the things we don't talk 
about are the rising costs relating to public health due to 
climate. Could you go into greater detail there on solutions 
for us moving forward?
    Ms. Cleetus. Sure. As I mentioned, the National Climate 
Assessment has pointed out the multiple ways in which climate 
change is already affecting health and will do so in the 
future. To take just one example, extreme heat events, which 
are getting worse, and they are now affecting parts of country 
that weren't affected before.
    So what is really important in this moment is, first of 
all, that we need to understand what the climate trends are 
already showing and what the risks are coming our way. We need 
to identify vulnerable populations. I mentioned several in my 
testimony, including the elderly, the very young, people with 
preexisting medical conditions, outdoor workers, homeless 
people, incarcerated people, first responders. We need to 
identify these vulnerable populations and where they are in the 
country and make sure that we have got early warning systems in 
place, that our healthcare systems have the resources to deal 
with the consequences of these extreme events and the health 
outcomes that they will have.
    That means actually having a holistic picture. We are 
dealing with climate change, but we are also talking about 
healthcare systems, and doing these things together, 
mainstreaming climate resilience across the board is the call 
of the hour.
    We need better coordination from the Federal to the local 
level, Health and Human Services, CDC, EPA, NOAA, agencies 
working together at the Federal level helping at the local 
level. We have also got to understand that in some of these 
coastal places, we will have displaced population----
    Ms. Castor. I may need you to continue when you are 
answering another question, because I have got to recognize the 
ranking member for 5 minutes.
    Ms. Cleetus. Sure.
    Mr. Graves. Thank you.
    I want to thank you again for your testimony.
    Mr. Russell, fifth generation farmer. Certainly, lots of 
history there. Would you agree that over those generations with 
improvements in fertilizers and other techniques, that there 
has been an increase in yield per acre of different 
agricultural products?
    Mr. Russell. Absolutely. That is why I was talking about 
the green revolution. We did that immensely.
    Mr. Graves. And which has helped out the United States, but 
countries all over the world. And so what is your--your 
recommendation is, which I think makes a lot of sense, is to 
basically incentivize farmers to innovate to help improve sort 
of the biogenic environment or the natural environment's 
ability to sync. And Delegate Hodges actually mentioned the 
engineered oyster reefs, which is another sink for greenhouse 
gases.
    There is a tax provision that was included called 45Q that 
does provide a tax credit under certain circumstances for 
carbon sequestration. And, basically, what you are saying is 
that should also apply to farmers and to incentivize them to 
carry out practices that does increase the uptake of greenhouse 
gases or sequestration. Is that----
    Mr. Russell. Yeah. And I am not extremely familiar with 
that tax credit, but that is exactly the type of solutions that 
we need for farmers to have access to.
    Mr. Graves. That is great. And I think that there is a role 
for incentivizing, again, the biogenic environment, whether it 
be through farmers or finding other techniques, but also 
recognizing that the use of fertilizers, which is very natural 
gas heavy, there is a complementary relationship. You can find 
ways to sink while still increasing yield and you kind of get a 
win-win.
    Dr. Diffenbaugh--did I get that right? Thank you.--I want 
to make sure that I understand a few things. Number one, based 
on earlier opening statement and comments from previous expert 
witnesses, you do agree that there is momentum built up in the 
greenhouse gas concentrations to where if we cut all emissions 
from the United States today, we would still see increases in 
temperature and sea rise and things along those lines?
    Mr. Diffenbaugh. Yeah. I actually published a paper in 2012 
running exactly that thought experiment of what if, not only 
the U.S., but all of the OECD countries, cut emissions 
instantaneously.
    Mr. Graves. So there is no regrets for us carrying out 
resiliency activities right now. I mean, those are things that 
no matter what we do with our emissions profile, those are no 
regrets investments in helping to improve the resiliency of our 
coastal communities and communities all over the United States. 
Is that accurate?
    Mr. Diffenbaugh. Yes. I think there are two key points. One 
is that resilience can be a win-win, as we have heard 
throughout the morning, that there are opportunities both to 
manage climate risks, both by managing our greenhouse gas 
trajectory and by becoming--catching up with the climate change 
that is already happened and becoming more prepared for the 
climate change that will happen in the future.
    Mr. Graves. So if you look back between 2005 and 2017, the 
United States has reduced emissions by somewhere just under 1 
gigaton; whereas during a similar period of time, and I think 
moving forward toward--during a similar period of time, I 
think, and I need to go back and check this, but I think China 
increased their emissions by, I want to say, maybe four or five 
times what the U.S. reduced theirs by. Under Paris, by 2030, 
they are expected to increase another 5 gigatons.
    So the U.S. is taking these aggressive efforts to cut 
emissions while other countries are increasing emissions 
multiple times, we are not headed in the right direction, are 
we, in regard to trying to head off this mitigation challenge 
that we are experiencing, meaning that we are going to end up 
with net temperature increases, with net sea rise, and things 
along those lines, if the U.S. is reducing and other countries 
are significantly increasing emissions? Is that accurate?
    Mr. Diffenbaugh. So we know because of the fundamental 
physics of planet Earth, the basic energy balance of planet 
Earth, that in order to stabilize the global temperature at any 
level, that essentially requires reaching net zero emissions. 
And as was mentioned earlier, reaching net zero by mid century 
gives about a 50 percent chance of staying below 2 degrees C.
    Mr. Graves. Net zero means everybody, though, is my point; 
is that we can't just come to the United States and stop all 
emissions and have other countries more than offset the 
emissions we are reducing by increasing their emissions and 
having any type of environmental--positive environmental 
outcome.
    Mr. Diffenbaugh. So net zero is a global requirement for 
the global energy balance. It is important to keep in mind that 
we have had about 1 degree Celsius of global warming already. 
The U.S. has contributed about a quarter of the emissions that 
have, you know, led to that warming historically. And, in 
fact----
    Mr. Graves. But if China is increasing fivefold what we are 
reducing, where----
    Mr. Diffenbaugh. But if we look--if we look at the total--
if we look at the total cumulative emissions historically, the 
U.S.----
    Mr. Graves. Is there something we can do about historic 
emissions or can we only do things about prospective emissions? 
We can carry out some of the activities, like Mr. Russell 
indicated and Delegate Hodges indicated, to sequester carbon, 
but in terms of--we can't do things about--otherwise about 
emissions that have already been released. We have got to look 
forward.
    So having China on a trajectory of quadrupling what we are 
reducing isn't the right direction that we need to be heading 
in.
    Mr. Diffenbaugh. So we are dealing now with the emissions 
that have already been released in that we are paying out year 
after year in the cost of climate change that we are living 
with right now. And as I said in my opening statement, we have 
opportunities to manage those risks by simultaneously managing 
our emissions and increasing our resilience.
    Ms. Castor. Mr. Lujan, you are recognized for 5 minutes.
    Mr. Lujan. Thank you very much, Madam Chair. And I want to 
thank our chair and our ranking member for holding this 
hearing.
    Dr. Diffenbaugh, yes or no, should the United States take 
action to reduce emissions?
    Mr. Diffenbaugh. The question of should is a question for 
elected officials such as yourself.
    Mr. Lujan. Dr. Diffenbaugh, must the United States take 
action to reduce emissions?
    Mr. Diffenbaugh. In order to stabilize the global 
temperature, the global----
    Mr. Lujan. That is not a yes or no.
    Let's move on to the next one. I will submit it to you in 
writing, that way we can get a thorough response.
    Dr. Cleetus, should the United States take action to reduce 
emissions?
    Ms. Cleetus. Yes. As part of the global effort to limit 
climate change, the United States and the----
    Mr. Lujan. Yes or no is fine. Thank you.
    Delegate Hodges, yes or no, should the United States take 
action to reduce emissions?
    Mr. Hodges. In a market-based approach.
    Mr. Lujan. Is that a yes?
    Mr. Hodges. Yes. In a market-based approach.
    Mr. Lujan. At least you qualified it, but that is a yes. I 
appreciate that.
    Mr. Russell, should the United States take action to reduce 
emissions?
    Mr. Russell. Absolutely.
    Mr. Lujan. I was getting lost on that last exchange of 
should we or shouldn't we or where should we go. I think that 
we must take action on resiliency and that the United States 
must take immediate action to reduce emissions. The two go hand 
in hand. If any of you are concerned about rising sea levels, 
it is not just about the action we take now; it is about the 
actions we take forward. This is not a complicated question. 
And so I hope that that provides a little bit of content and 
context to at least where I stand on the issue. I appreciate 
the testimony today.
    In New Mexico, we are experiencing extreme weather as a 
result of climate change as well. For generations, summer 
monsoons and winter snowpack provided New Mexico communities 
with the water they needed to thrive, even during times of 
drought.
    This last year, we had a flood in Santa Fe, New Mexico, 
that some described as a 1,000-year episode. The year before, a 
flood that was described as a 500-year episode. And when we 
talk about the importance of resiliency, and also for all my 
colleagues that represent coastal communities, there weren't 
programs to help those families that experienced those episodes 
as well.
    I think that as we talk about resiliency and making sure 
that we are able to work with families, that we take into 
consideration areas like New Mexico, where we sit in the high 
desert and are drought-prone, where wildfire may be more likely 
than a flood, but 2 years in a row of 500-year and 1,000-year 
episodes are very concerning.
    To Mr. Russell, you said that every farmer in every part of 
the country should have access to these programs. Does that 
include farmers who maybe farm on an acre or two?
    Mr. Russell. Yeah. To be clear, when we are bringing 
farmers into basements in churches and we are leading with what 
is your faith calling you to respond with your farm, most of 
those farms are conventional commodity and livestock farms, 
6,000, 6,500 acres. But we have had a few farmers in that room 
that do have like a couple of acres of produce. So that is the 
mix in Iowa. But it is in every part of this country.
    If you are managing your farm so that at the end of the 
day--or at end of the year you have a net balance of less--like 
more carbon on your farm and less emissions, your balance is 
negative, we as taxpayers should be paying you for those 
services because that is what the world is demanding. And so 
every farmer in the country is going to manage their own system 
with that metric.
    Mr. Lujan. Mr. Russell, let me ask the question a little 
differently. In Iowa, you have some of the largest farms in 
America.
    Mr. Russell. Yeah.
    Mr. Lujan. There are a lot of programs that help the 
largest producers in the country where most food is produced. 
You also have farmers that raise in a basement or on an acre of 
land. Should those farmers that raise crops in their basement 
or, in my case, in New Mexico, most farmers raise crops on an 
acre of land, should those farmers also be included in the 
programs as we talk about the goals associated with carbon 
capture and what farmers can achieve?
    Mr. Russell. Right now, a lot of our programs are practice 
based. So if you follow the--we need to shift to a performance 
base, so if on my farm I can show, it doesn't matter what size 
my farm is, that I am delivering, I should qualify.
    Mr. Lujan. I am interpreting that as a yes.
    Mr. Russell. Absolutely, yes.
    Mr. Lujan. Just a straight answer. We have only got 5 
minutes here.
    Dr. Diffenbaugh, does the Stanford Woods Institute for the 
Environment have any papers that you published on the 
importance of reducing emissions in America, even though you 
are here in your personal capacity?
    Mr. Diffenbaugh. I have published a number of papers 
quantifying the differential impacts at different levels of 
emissions.
    Mr. Lujan. And do any of those documents include the need 
to call for action on reducing emissions?
    Mr. Diffenbaugh. I am unaware in my peer-reviewed 
scientific writings or in my public op-ed writings of any time 
in which I have stated that----
    Mr. Lujan. I will go back and read them.
    Thank you, Madam Chair. I yield back.
    Ms. Castor. Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Just to clarify the record, we are not suggesting that the 
United States not reduce its carbon emissions. We are leading 
the world in that area. The fact of the matter is, and some of 
you may disagree--Madam Chairman, the clock is not on, not that 
I don't mind talking as long as I can----
    Ms. Castor. Got it.
    Mr. Palmer. All right. Time change.
    What was my point? Oh, that we are leading the world in 
reducing carbon emissions. There are also other factors that 
impact the weather. I mean, I know you are all expert 
scientists, but what about the shift in the magnetic poles and 
the potential for impacting weather. Anyone want to comment on 
that? Probably not.
    Mr. Russell. No, I am happy to comment on that.
    Mr. Palmer. Alright.
    Mr. Russell. I mean, we have seen across the State talking 
to farmers over the last decade, 15 years, that--you know, we 
first started talking about extreme weather, we wouldn't talk 
about climate change, but we talked about extreme weather. And 
then we came up with a lot of natural cycles to lean into. And 
we are now believing increasingly that those natural cycles 
exist, but that something else is happening that is really 
radically different. And we are ready to start leaning into 
fixing those things we can fix. We can't fix the magnetic 
field, but we can fix carbon, and it does have a profound 
effect on our farms.
    Mr. Palmer. Well, I am glad you mentioned the natural 
cycles, because I think it is becoming more and more apparent 
that natural variation is having a greater impact on climate 
change than carbon emissions. That doesn't mean that carbon 
emissions don't have an impact. They do, they certainly do.
    But in terms of resiliency, and I thought that is what we 
were here to talk about, adaptation and mitigation, we need to 
be preparing for what we know we cannot stop. I mean, they shut 
down the Tampa airport not too long ago because of the shift in 
the magnetic fields, and they are shifting at an unprecedented 
rate. I think it is, like, 30 miles per day. You have that, 
combined with the solar activity, and our magnetic fields 
protect the Earth from those cosmic rays which impact our 
weather, as do ocean currents, changes in ocean currents. And 
we need to be focused on how do we protect ourselves from that.
    These events will cause sea level rise. We heard someone 
mention 500-year floods, 1,000-year floods. There is a reason 
we talk about 500-year floods and 1,000-year floods, is that we 
have had massive floods throughout the history of the world. 
Climate has a history.
    So I think when you talk about this, if you put all of your 
focus just on reducing carbon emissions and we don't take into 
account these other events that are taking place, we are going 
to find ourselves in a really bad place.
    You want to comment on that, Doctor.
    Mr. Diffenbaugh. Yeah. So I think, as you may have gathered 
from my recent exchange with Congressman Lujan, I am pretty 
conservative in my statements. In this question of whether the 
contribution of natural variability, the contribution of solar 
forcing, the contribution of human forcing, my work is 
extremely conservative. The work in my community is extremely 
conservative. Our null hypothesis is that when an extreme event 
happens, it was due to random chance and that global warming 
had no role. We are extremely conservative, both in terms of 
our intellectual framework and in terms of our statistical 
treatment.
    So our statistical treatment is beyond a reasonable doubt, 
statistically, and we need very, very, very high confidence in 
order to reject a null hypothesis that it wasn't--the null 
hypothesis being that it was random chance.
    It is very difficult to move us off of that position, and 
the reality is that even with that level of conservativism, we 
still find that for severe heat events, as I mentioned earlier, 
more than 75 percent of North America, the scales have already 
been tipped towards record-breaking heat events, record-
breaking wet events, at half of North America, record-breaking 
dry events. And that is even within the framework of being 
extremely conservative.
    Mr. Palmer. I find that interesting. You are in California, 
right?
    Mr. Diffenbaugh. Correct.
    Mr. Palmer. And our temperature records only go back so 
far, but yet we have record evidence of major droughts that far 
exceed the droughts that California has experienced in the last 
75 to 100 years. The same thing of the southwestern part of the 
United States. And again, climate has a history. And my point 
is, is that we know that climate is changing. It always 
changes. We are in an interglacial period.
    Mr. Diffenbaugh. So for California, there have been--and 
the broader western U.S.--there have been many, many, many 
studies analyzing, not only the instrumental record that goes 
back around a century, but these geologic proxy records that 
you are mentioning. And, in fact, the California drought 
actually was an unprecedented event in those proxy records that 
we have available to us, in terms of the combination of low 
precipitation and high temperature.
    Mr. Palmer. Just one last point. In terms of mitigation/
adaptation, California had the opportunity to expand their 
reservoirs and didn't, and you got about 40 million people 
using water, which I think really makes a drought situation 
much more difficult.
    I thank you, Madam Chairman. I yield back.
    Ms. Castor. Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair.
    Dr. Diffenbaugh, I wanted to also ask you, you talked about 
wildfires in California. I am from California. I represent 
Ventura County. Over the last 14 months, the entire county has 
burned through two very significant fires, Thomas Fire and 
Woolsey Fire. If we do nothing, everything stays the same and 
we move forward. Can you describe what wildfires look like if 
nothing changes?
    Mr. Diffenbaugh. Yes. We have very strong evidence that 
global warming has already increased the risk of wildfire in 
the western United States. And, in fact, about half of the 
increase in area burned has been attributed to that drying of 
the vegetation from the rising temperature. And we certainly 
are seeing, as you know very, very well, and your constituents, 
clearly, sadly know very well, we are experiencing the impacts 
of that global warming that has already happened. We also have 
very strong evidence that if emissions continue, we will 
continue to experience intensification of that wildfire risk.
    Ms. Brownley. Does that mean more fires, more frequent 
fires? What does that mean exactly?
    Mr. Diffenbaugh. Well, so I think we can expect 
continuation of the trends in areas burned. So what we are 
hearing very clearly from Cal Fire is that, one, they no longer 
consider there to be a wildfire season. It is a year-round 
phenomenon. Two, they are experiencing fires that expand faster 
and are more difficult to control. And those are key 
contributors to the increase in the area burned. Three, the--
because of the elevated risk across the State and across the 
region, our old systems of deployment, the planning, the 
resource allocation throughout the year and in different 
geographic regions is no longer durable. And we certainly saw 
that very tragically this last autumn season where having both, 
you know, those severe fires in both northern California and 
southern California simultaneously that late in the year made 
it, frankly, impossible to contain those fires until they were 
very, very large.
    So I think that we have very strong evidence that, at a 
minimum, we can expect continuation of the recent trends, which 
have been very steep. And, you know, our current research is 
focused on understanding whether there could be processes that 
accelerate those trends even further.
    Ms. Brownley. Thank you.
    Dr. Cleetus, you talked about, in your testimony, with 
regards to coastal flooding will exacerbate income inequality. 
If you could talk a little bit more about that.
    Ms. Cleetus. Well, as I pointed out, our research is 
showing there is a lot of coastal property at risk from chronic 
flooding, but it is not just property, right. There is a lot of 
things in the way, including infrastructure, critical 
infrastructure that people depend on. For many people, their 
home is their single biggest asset, and this matters even more 
for low-income and fixed-income folks if they lose property. 
Local property tax bases getting eroded has a tremendous effect 
on the ability to fund local services that people depend on, 
emergency services, social services.
    So there is a spiraling effect. As properties get affected, 
other things start to--the domino effect starts to play in. And 
in some places, like in coastal Louisiana and Maryland, many 
people are going to be displaced by this flooding. They already 
are being displaced as land gets lost. So especially for low-
income folks, communities of color that have had historic 
burdens, this means that the effect will be even more magnified 
on them.
    Ms. Brownley. I have a very large Naval base in my 
district, it is coastal, very important to our national 
security. Could you speak to impacts on national security?
    Ms. Cleetus. Absolutely. Our research is showing that there 
are a lot of military installations around the country that are 
at risk from flooding, coastal installations. And we know that 
the U.S. military takes this threat seriously. They understand 
that, both here in the U.S. and around the world, their mission 
critical readiness depends on preparing for these impacts. For 
example, naval station Norfolk is doing a lot to help prepare 
for these impacts. We have seen reports from DOD on climate 
resilience. They are also investing heavily in renewable 
energy, because they understand that that is also critical for 
their mission.
    And the community surrounding the bases are also being 
affected. And we have seen that with the hurricanes that we 
have seen with Michael and Florence last year, terrible 
hurricanes, terrible impacts on U.S. military installations.
    Ms. Brownley. Thank you, Madam Chair. I yield back.
    Ms. Castor. Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Thank you very much. And I appreciate our 
witnesses being here today.
    Delegate Hodges, good to see you. And greetings from 
Congress to the oldest legislative body to have continuously 
met and have been elected in the world, the Virginia House of 
Delegates, formerly the House of Burgesses. And while Virginia 
hasn't always gotten it right and there is certainly some 
really large, bad things we have done, one of things we did was 
to bring elected representative government to the new world. 
And would you please tell the members of the committee, with 
the exception of former delegate and State senator Don 
McEachin, who already knows, exactly how old is the Virginia 
legislature?
    Mr. Hodges. Let's see. Well, actually, it dates back to the 
House of Burgesses. And let's see, 1689, I believe.
    Mr. Griffith. 1619, so this is the 400th year of its 
celebration.
    Mr. Hodges. Oh, I should know. That is right across the 
river too.
    Mr. Griffith. You talked about Gwynn's Island.
    Mr. Hodges. Yes, sir.
    Mr. Griffith. And, of course, it is an interesting--Mathews 
County in Gwynn's Island is an interesting area. And there was 
a book recently written about the men who fought in World War 
II, because they all knew the water so well because the roads 
weren't as good as the waterways to get around.
    You talked about regulations that were affecting the 
ability of Virginia to respond to the water rise and the 
increased water rising. Can you give us some more detail on 
that, because you only had 5 minutes?
    Mr. Hodges. Yes, sir. Thank you, Mr. Chairman. And the 
Hodges man in Mathews County, no relation that I know of, but 
that is who it was about.
    We have identified 23 laws and regulations passed 50 years 
going back to the Clean Water Act through ENS, storm water, the 
Chesapeake Bay Act; septic. All of these programs had a well-
intended purpose: protect our waterways and protect our water 
quality. But what we found is, over the years, we didn't intend 
for sea level rise and things changing.
    And everything that we are working on flooding and chairing 
that flood commission, those barriers are in place to get 
results. We can study everything, but unless you can get that 
wall that government has put in place--government is here 
looking at solutions today, but also, government is our largest 
barrier.
    Mr. Griffith. So are you saying, Delegate, that in order to 
protect some of these areas from flooding, you need to build a 
wall, but first you have to tear down the wall of regulation 
that prevents you from protecting land from being flooded?
    Mr. Hodges. Yes, sir.
    Mr. Griffith. So what we need to do is--are you asking us 
to do a comprehensive review of the laws to make sure that what 
we thought was going to be water flowing into the waterways is 
now water flowing onto the land, and to make sure that we 
haven't created any improper barriers that would prevent you as 
a State legislator from protecting the people in your district?
    Mr. Hodges. Yes, sir. I like to say, if we had an eraser 
and could start from scratch, how would you build this program 
that still protects water quality, that protects our property 
owners, and looks at long-term effects of the flooding? All of 
these laws and regulations are intertwined. And, unfortunately, 
our government, they think in silos and it creates a huge 
barrier and permitting process, and headaches for landowners. 
And we have to find a way to tear down that wall and do a 
comprehensive review. We can build a better mousetrap at a 
lower cost and help business and property owners.
    Mr. Griffith. So no matter why the seas are rising, they 
are rising, and you want to make sure you can protect your 
people that you represent in the coast of Virginia.
    Mr. Hodges. Yes, sir, definitely. Number one priority.
    Mr. Griffith. All right. Appreciate it. And then, you know, 
one of the big concerns, and we have heard several of the folks 
already mention, is that a lot of the pollutants that we are 
worried about, you know, coming in the future are coming from 
overseas. And we all share the air. In fact, there is a 
wonderful study that NASA did. They followed a sandstorm from 
the middle of the Gobi Desert, and it took 10 days to get to 
the eastern shore of Virginia.
    So what they are doing with, you know, carbon emissions in 
Asia only takes 10 days, maybe India is 11 or 12, to get to the 
United States. And so if we are not careful, we are going to 
ship all of our jobs off to Asia because we said you can't do 
anything here. And we are going to end up with the air 
pollution and the CO2 anyway. Isn't that correct?
    Mr. Hodges. Yes, sir. Yes, sir.
    Mr. Griffith. And so we need to look at things in creative 
ways. Mr. Russell brought up the farming, and some organic 
farming folks in my district say that a lot of the practices 
they use help capture more carbon than the more industrialized 
farming. I think that is probably true, and we should find ways 
to encourage that.
    Mr. Hodges. And if I may, Mr. Congressman.
    Mr. Griffith. Yes, sir.
    Mr. Hodges. We are all actually at a market-based approach. 
Chairing the Rappahannock River Basin Comission, we have been 
able to quantify the value of forestry as a water quality 
initiative, and forestry also helps protect with flooding. And 
through a market-based approach in quantifying that, we had 4.3 
billion metric tons of carbon sequestration in Virginia 
forestry, but it was unable to get it to the marketplace so we 
have come up with a solution.
    Mr. Griffith. All right. Thank you. I yield back.
    Ms. Castor. Mr. McEachin, you are recognized for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair.
    And, again, I want to echo Congressman Griffith's 
sentiments and welcome Delegate Hodges to the other side of the 
Potomac.
    Mr. Hodges. Good to see you.
    Mr. McEachin. I hope you will take a moment to come to the 
House floor and see the joke of a mace that we have. Only those 
of us who have served in the Virginia legislature can 
understand what we are talking about, but I hope you will take 
a moment to do that.
    On a more serious note, though, to the extent that you have 
identified regulations that are not allowing you to, or us in 
Virginia, to combat sea level rise, I invite you to send to my 
office suggested changes. And I mean that sincerely and 
seriously. Get your executive director to jot down some notes 
and let us take a peek at it and, copy Morgan on it too so he 
will keep me honest.
    Mr. Russell, I would like to ask you--I know we have gone 
over this a couple of times through different members, but I 
think we are all struggling for us to try to see, for you to 
put clothes on this notion of paying farmers to sequester 
carbon. I think it is a great idea, sounds great. I am a big 
believer in creation care. I want to invite you to share with 
us with more specificity what that looks like. Are we talking 
about a tax credit or are we talking literally a payment? What 
does it look like to you at least?
    Mr. Russell. Well, thank you for the question. We have the 
most robust toolkit in this country around agriculture than any 
other place on the planet, any other country. The history of 
our land grants, the USDA programs. So I am not going to 
advocate a specific thing today but more a directional 
approach. We already have the tools in place, so how do we 
complement good public policy that creates incentives with 
markets?
    And so in terms of capturing carbon, right now, we have in 
our farm programs a lot of practice-based programs. If you do 
this, check, you get a cost share. But in the future, it looks 
like the signals are that there is going to be a monetization 
of carbon. There is going to be some kind of market. 
Congratulations to California for already moving in that 
direction and for inviting farmers to participate in that 
market. That is where we are headed.
    So how do we position American farmers to lead that and 
then participate in it?
    And so when Secretary Northey left Iowa as Secretary of 
Agriculture and went to become Under Secretary of programs, I 
was talking with him and talking about this opportunity. And he 
said, Matt, how could we pilot something like this in the farm 
bill? Right. So an example would be, if I can show on my whole 
farm that I am essentially a negative carbon balance, I am 
pulling more carbon out than I am releasing, then can I get a 
higher crop insurance subsidy? In other words, can the 
taxpayers reward me for that performance-based effort? That is 
just one example. The farm bill is loaded with opportunities.
    And collectively and creatively, when we put farmers in a 
leadership position helping drive and understand that policy, 
what we can do is the same kind of transformation that happened 
from horses to tractors. And I live on a farm that was built in 
the 1930s, and we have got a barn with five stalls for draft 
horses. That farm bet on horses in the future, and they were 
wrong. We went to tractors.
    Right now, when we keep everything the same, we are betting 
on horses, when the future is telling us we are headed to 
tractors. And tractors are monetized carbon, carbon markets, 
paying people for solutions to solve this problem.
    And to Representative Palmer's point, excellent; I agree 
100 percent. We can't just do resiliency and we can't just do 
carbon cap; we have to do both together. And the fortunate 
thing for agriculture is when we capture carbon, we actually 
become more resilient. It is a twofer. And we have the tools in 
our farm programs already to adjust and develop. And we have 
farmers who are so capable of solving problems if we invite 
them in to do this, in the next decade, we can--it is not a 
transformation of agriculture that throws out everything we 
have got. It is a transformation of agriculture that builds on 
everything we have.
    When we increase the organic matter in our soils from 2 
percent in Iowa up to 5 percent, we go from 200 bushel corn to 
300 bushel corn with half the added nitrogen. That is the 
future, that is the promise.
    Mr. McEachin. Thank you. Madam Chair, I yield back.
    Ms. Castor. Thank you.
    Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Madam Chair. Thank you all for 
being here today.
    Mr. Russell, in 1992, we bought a farm. In 1994, we bought 
five female and one bull American bison. I as a legislator 
learned how to deal with chicken litter. As a farmer, I learned 
how to deal with buffalo litter. And I agree with many of the 
things you say, because farmers do solve problems. One of the 
problems was when the government thought multiflora roses would 
be a wonderful fence, and they have been a terrible thing to 
deal with.
    Delegate Hodges, welcome, from the other Virginia. I 
represent West Virginia. And we are geographically challenged 
in an entirely different way than you are. Our folks, as they 
moved west, settled along the rivers. Some of them did go to 
the top of the mountains, but most of the population was along 
the rivers. And we have had to deal with a lot of flooding.
    Dr. Cleetus, I am a mother and a grandmother and very 
concerned with our climate and the environment that we give to 
our children and our grandchildren. The policies and the 
programs you talk about make us realize that this issue is 
multipronged. It isn't just one area. It encompasses many 
people, many areas. And I know what bad policy and what 
unintended consequences can do to devastate whole communities.
    Dr. Diffenbaugh, I recently read an article in The New York 
Times that states that China, in their northern province, 
Shandong, is releasing CFC-11, which is really bad for the 
ozone. And from the Montreal Protocol, all of that was supposed 
to be finished; maybe mid century, there would be nothing left. 
And this is really a bad thing for our climate.
    So I want you to know that we are dealing with many 
different types of problems, as some of the other Congress 
people have mentioned, in dealing with the ozone and with our 
environments. So I just want people to realize that things are 
happening out there in the world that directly affect all of 
us.
    But we are here to talk about resilience, and so I want to 
talk about what happened in my area recently. We have been 
having a lot of flooding. In 2016, it devastated several 
different counties in my district. There were three schools in 
Nicholas County, West Virginia, which, in my district, totally 
were destroyed. The flood damage was terrible, the impact on 
these three schools.
    When you think about schools in rural America, they are 
your community. They are the center of everything that happens. 
It is not only a place of learning, but it is a community hub. 
And it is now 2019, and we are still trying to find out what 
went wrong and review the assessment needed to replace these 
schools. This incident has illuminated the fact that our 
communities need to be equipped to handle disasters and what to 
do once that they receive the Federal assistance. That is where 
the slip is between the cup and the lip.
    Last year, President Trump signed the Disaster Recovery 
Reform Act, DRRA, which enacted many provisions to help build 
up our capacity for our--any catastrophic event. This is an 
action, it is not just talk.
    Delegate Hodges, given your position on the State level, 
how can we better equip our States, counties, and cities to 
best utilize disaster funding and prepare for the next 
disaster?
    Mr. Hodges. Thank you for the question. As an answer to 
that, we--and as Congressman Griffith had asked, the regulatory 
burdens actually tie our hands to be able to utilize these 
funds sometimes. They are not always used in the most effective 
way. We actually have created a living shores revolving loan 
program that helps to build living shorelines and incentivize 
landowners to do that. We have created, through a septic loan 
program, to repair our failed septic systems that are 
contaminating our waters when flooded. But I do believe that 
the funding challenge is real. We need to better utilize those 
funds.
    Mrs. Miller. What you are saying to me with those answers 
is it really is the State and the counties that best know how 
to handle----
    Mr. Hodges. They do. And from the top down is not the 
solution. It needs to come from the bottom up. And as you said, 
each area of the country is different and, you know, how we are 
dealing with flooding. So we are the ones that know best how to 
utilize those funds to get them to our homeowners, to get them 
to our farmers, and to utilize those funds in the best way.
    So it really should come from the ground up, but the 
regulations and laws have gone from the top down. So we need to 
look at tearing down those walls. The pie is only so big. You 
know, there is only so much money, and we need to better 
utilize those funds and get them into the right hands.
    Mrs. Miller. Thank you. I yield back my time.
    Ms. Castor. Thank you.
    Mr. Levin you are recognized for 5 minutes.
    Mr. Levin. Thank you, Chair Castor.
    I appreciate everyone's testimony today. It reinforced a 
fact that we know well in southern California where I live, and 
that is that our sea levels are rising and that means serious 
consequences for our public health, our communities, and our 
property. In my district, we are seeing decades-old structures 
falling into the Pacific Ocean. Literally, things like 
basketball courts and parking lots and public restrooms that 
are no longer able to operate. And that might sound trivial, 
but this is just the beginning of much worse to come, based on 
much of the research that you have done.
    The U.S. Geological Survey last year projected higher 
levels of climate change in my communities in Orange and San 
Diego counties over the next century. A lot of the best work 
being done in this area is being done at the Scripps Institute 
of Oceanography, which is in my district, as is the University 
of California in San Diego. And researchers at Scripps have 
created a network that measures wave characteristics, tide 
heights, water levels. And it is used to do wave modeling and 
predictions, as well as flood forecasting.
    Using that network, the folks at Scripps can predict when 
the city of Imperial Beach is going to be at greatest risk. And 
if you have heard about Imperial Beach, they have had 
significant concerns with flooding.
    Dr. Cleetus, I wanted to ask you a question. I certainly 
share your belief that we need to cap warming in order to limit 
sea level rise. But do you see a benefit in expanding the types 
of things that Imperial Beach and the Scripps institute are 
working on, perhaps to other cities to be able to forecast 
flooding? And do you think it could help us avoid some of the 
costs of climate change that you outline in your testimony?
    Ms. Cleetus. Absolutely. I think this kind of scientific 
data and research is critical to help local communities 
understand the risks that are coming their way, and kind of 
measures that will work and the kinds that may not work in 
light of the risks that are coming. So absolutely, sharing that 
information, cities and towns are often the laboratory of 
innovation in this space, and I fully encourage that kind of 
sharing.
    Mr. Levin. I wanted to turn to a different topic, which is 
one that you have probably been hearing about in the news, 
infrastructure. I think we probably here all want a great 
infrastructure bill, but we seem to be moving further away from 
one. But I think it is really important that, with you here, we 
talk about how to build sustainable infrastructure that is 
really forward looking and thinking about climate change.
    So to Dr. Cleetus and Dr. Diffenbaugh, what types of 
projects and programs would you like to see in a discussion of 
a climate change resilient infrastructure bill?
    Ms. Cleetus. So the first thing is we have to make sure 
that the infrastructure we are building is going to be climate 
resilient, and it is taking into account these projections that 
we are seeing around extreme precipitation, heat, and other 
kinds of extreme events. We can also simultaneously be building 
low carbon climate resilient infrastructure. So get some 
twofers out of this, renewable energy, energy storage, other 
things that cut emissions that also keep the grid online and 
secure during extreme weather events.
    Mr. Diffenbaugh. I appreciate that question. And I would 
point you to the California Safe--Climate-Safe Infrastructure 
Working Group AB 2800 and our report that was released last 
summer.
    A couple of highlights. One is creating climate-safe 
infrastructure starts with an acknowledgment that the climate 
is changing. There were many engineers on that working group, 
and a lot of the discussion was focused on the ways in which 
the historical data no longer accurately predicts the frequency 
of extreme events. We have heard already about 1,000-year 
events and 500-year events happening in quick succession and 
that is because of the nonstationarity of the climate. And so 
acknowledging those changes and updating the way in which 
planning is done is critical.
    And then I would echo the point about win-wins between 
resilience and emissions. One proposal that a colleague of 
mine, Michael Wara, at Stanford has made in an op-ed in the Los 
Angeles Times with regard to wildfires. One of the big risks of 
wildfires, as you know, are the electric lines and PG&E has 
been in the news a lot about that. So my colleague, Dr. Wara, 
has proposed having solar and storage, battery storage and 
solar capability as a way of providing electricity when those 
lines are decommissioned. So this will provide both resilience 
by reducing the wildfire risk, but also low carbon energy and 
maintaining electricity availability to vulnerable populations 
when those lines are deenergized.
    Mr. Levin. So I am out of time, but I would love to make 
sure that we follow up with you and the appropriate people in 
our Transportation and Infrastructure Committee so that they 
can get that study.
    Mr. Diffenbaugh. I would be very happy.
    Mr. Levin. I yield back.
    Ms. Castor. Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. And I thank all of you 
for being here. Interesting discussion today, and appreciate 
all of you.
    Delegate Hodges, thank you for being here. Appreciate you 
coming and testifying. You know, in another life, I was a 
mayor. And I remember when I was a mayor, you know, there are 
all these projects you want to do and you just can't afford to 
do them. And it is challenging. In fact, we had the mayor of 
Los Angeles here yesterday that we met with to talk about these 
specific issues. And even he expressed the frustration, you 
know, with not being able to do all the projects that he wanted 
to do.
    But I wanted to mention a project that is being done down 
in Georgia. In fact, it is being led by Georgia Tech, the 
Georgia Institute of Technology. It is a program that installs 
sensors. And let me back up for just a second. I represent the 
entire coast of Georgia, over 100 miles of pristine coastline. 
So rising sea levels are important to us, obviously, and we are 
very concerned.
    But the program at Georgia Tech, they have installed 
sensors that help the coastal areas to pinpoint the specific 
areas that might be impacted and that we need to build up 
resiliency and roads, bridges. And this is a great program.
    And I just wanted to ask you, Delegate Hodges, how 
important do you think it is that we use metrics that can help 
us show these type of events and the impact that they could 
have?
    Mr. Hodges. Sure. Actually, thank you, Congressman, for the 
question. Metrics are very important. It is important to have 
the science and the data. As we are, you know, also looking at 
sea level rise, where I live, we also have land subsidence with 
groundwater withdrawal. So just a very small lowering of the 
land can have a tremendous effect on the sea level. So the 
metrics are very important, the science is very important. And 
I am fortunate enough to have the Virginia Institute of Marine 
Science in my district that I work very closely with that 
provides data that works with me very closely. So a world-
renowned center.
    Mr. Carter. How do you think the Federal Government can 
help in this?
    Mr. Hodges. Funding and any access, you know, any 
assistance with GIS. And also, as I mentioned earlier, to get 
out of the way.
    Mr. Carter. Exactly. The permitting process.
    Mr. Hodges. The permitting process is number one, 
especially with dredge material, dredge spoils. You know, the 
funding for dredging is no longer there from the Federal 
Government. We have identified a backlog of the permitting at 
VMRC with dredging. And we kind of streamlined that in 
legislation, but there is still a problem to having access to 
those dredge spoils that can be used for living shorelines of 
resiliency.
    Mr. Carter. Absolutely. Absolutely. And speaking of which, 
the University of Georgia, my alma mater, where I graduated 
from pharmacy school at, that is--they have got a project that 
is a very interesting project as well. And they are using--and 
it is--working in conjunction with the Corps of Engineers and 
with private businesses. So I am really proud of that. But it 
uses natural material like dredge spoils to build up 
resiliency. An example is they are building wetlands along the 
river. You know, I have always said, look, we have got to do 
all these things. We have got to have mitigation, adaptation, 
and innovation, and we do in order to address the situation.
    But do you think this is something, this example of using 
light dredge spoils? I mean, commonsense things like this, is 
this something the Federal Government ought to be pursuing?
    Mr. Hodges. Yes, sir. Dredge spoils can be of assistance, 
and you mentioned--you know, living shorelines. They can be 
used in living shorelines, which not only helps water quality, 
but resiliency and flooding. We are working on ways to 
incentivize landowners through tax relief at the local level, a 
loan program. But we need to build them bigger, we need to 
build them better. And these natural assets are also--they are 
assets, other like sometimes hardening structures are a 
liability.
    Mr. Carter. Right, right. And, you know, this is such an 
important issue for us along the coast of Georgia because we 
got like one-third of all the world's marsh land right in 
Georgia on the Georgia coast. So making sure we protect that 
marsh land is extremely important. Thank you, Delegate Hodges.
    I wanted to ask before I go, Mr. Russell, I thought it was 
in your testimony you mentioned using smart public policy 
combined with capitalism. And I found that to be quite 
interesting and quite encouraging, to be quite honest with you. 
I just wanted to ask you, do you agree that private investment 
and robust markets are necessary to improve resiliency for us?
    Mr. Russell. Absolutely. Our wind energy in Iowa is a 
perfect example of smart public policy. And shout-out to 
Senator Grassley, standing up, granddaddy of those tax credits, 
and defending them still. Smart public policy and markets built 
on top of it, we have a whole wind industry in our State. We 
are going to be 40 percent of one calculation of our energy, 
electricity renewable from wind. Absolutely, that is the key to 
the future.
    Mr. Carter. Thank you very much. And I yield back.
    Ms. Castor. Thank you.
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Well, thank you, Madam Chair.
    And I am once again reminded how nice it would be to take 
this committee on the road to California so that we could 
educate our colleagues across the aisle, and we continue to 
hear assertions about what is going on in California, things 
that have many Pinocchios attached to them. I know that we have 
got work to do.
    So thank you, Dr. Diffenbaugh, for pointing out that the 5-
year drought that California just recently came through is 
actually not consistent with anything we have experienced in 
modern history and even going back to the proxy record, whether 
you want to look at tree rings or any other proxy records. This 
was different. It was deep, it was hot, and it was climate 
change related.
    And the other assertion that we heard, of course, was that 
California has not been expanding water storage. Factually 
incorrect. California has expanded water storage, as well as 
invested in all sorts of other resiliency strategies, which is 
why we came through that drought of record without our economy 
skipping a beat, including the agricultural economy. So I think 
this committee could learn a thing or two about resiliency. 
California is not perfect, but this sport of California bashing 
at some point needs to give way to some fact-based 
conversation.
    I enjoyed the conversation about these twofers that several 
of our witnesses and my colleagues have referred to. And so I 
wanted to follow up on that a little bit.
    Dr. Cleetus, in your research, have you identified other 
examples that we haven't talked about, strategies that can be 
twofers, that can provide resiliency while also drawing down 
greenhouse gas emissions at the same time?
    Ms. Cleetus. I think there are tremendous opportunities 
across the economy too. I work on a power sector in particular, 
and in that sector there, is no question that investing in 
energy efficiency, low carbon energy, twinned with storage, not 
only helps us get affordable energy, low carbon energy, but 
also will help us build resilience through extreme events and 
extreme heat that are coming our way. And making sure that 
these are targeted at communities that are being 
disproportionately affected by these climate impacts is really, 
really important.
    So, for example, having these in public housing, upgrading 
public housing to have energy efficiency weatherization 
investments, investments in cooling because of the extreme heat 
coming our way that is putting people at risk.
    Mr. Huffman. All right. And let me ask you, Mr. Russell, 
about your testimony on this subject. You talked about some 
ways in which agriculture can be part of the solution. Talk a 
little bit more about how climate smart farming practices like 
planting cover crops, crop rotation, no-till farming can help 
sequester carbon as we mitigate for climate change.
    And also, the question I had as I was listening to your 
testimony is, I know that right now the agricultural sector is 
a part of the problem in terms of greenhouse gas emissions. We 
have a lot of chemical inputs, fertilizers, et cetera. Do these 
climate smart farming practices actually reduce those chemical 
inputs in other beneficial ways?
    Mr. Russell. I will try to be brief. I promise I will be 
brief.
    Essentially, when we look at managing living systems to 
develop the services needed that humans need, that is what 
agricultural is; historically, it has been food, and now going 
forward, it is going to be less about food. Still about food, 
but a lot of other things. And we have seen that over the last 
few decades, biofuels and other things, and now climate 
services.
    So with that in mind, as we lean into that, what we do is 
we increase the biological activity in the soil. The green 
revolution created productivity, but it didn't pay attention to 
the biology of the soil. The future is going to be about the 
biology of the soil, so photosynthesis, getting the biological 
activity. And when you do that, you get that carbon out of the 
atmosphere, through the plants, through the roots, through the 
biological activity, and stored working in the soil. So that is 
kind of how that happens.
    The result of that is that you increase organic matter 
tremendously, which holds more water when it is raining, has 
more water stored when its dry. So we get carbon sequestration 
and we get more resiliency. So that has happened, and that is 
the twofer that is happening at the same time.
    We have not managed our agricultural systems. We don't have 
agricultural industry invested in that model. But we know that 
farmers are able to develop that model. And so it is 
disruptive, but it is not necessarily disruptive to rural 
communities and farmers in the same way that it is disruptive 
to agriculture in general. So that is part of the rub.
    Mr. Huffman. Well, thank you for that.
    And finally, Delegate Hodges, I was intrigued by a number 
of the strategies that you talked about. I am a big believer in 
beneficial reuse of dredge spoils and the oyster reef 
restoration. Those both sound like great strategies. But I do 
think we know we have to be careful about how we do coastal 
resiliency strategies.
    And I would just note that the Virginia Institute of Marine 
Science that you referred to, coupled with Virginia Tech, did a 
study on at least a prior version of your bill and found some 
unintended consequences that still need some more work. So I 
would urge you to keep working on it.
    I was grateful for your statement that you would support 
greenhouse gas reduction through market-based strategies. 
However, I note that you voted against efforts to include 
Virginia in RGGI and TCI. So if the existing market-based 
strategies aren't good enough, I hope you will find some that 
you can put forward and support, because we have got to work on 
greenhouse gas reduction and not just resiliency.
    With that, I yield back.
    Ms. Castor. Mr. Casten, you are recognized for 5 minutes.
    We are going to try to finish before votes, so if you all 
could be brief. Thank you.
    Mr. Casten. Thank you, Chair Castor.
    Mr. Russell, in your work with religious leaders and people 
of faith in Iowa, do you ever come across the argument that as 
a species, our moral behavior should be predicated on other 
people being moral first?
    Mr. Russell. I would say no.
    Mr. Casten. Okay. Thank you.
    Dr. Cleetus, you mentioned in your testimony, I think you 
said that $136 billion of property is at risk from coastal 
flooding. That is, of course, a small fraction of the total 
economic loss from some of the wildfires and floods and 
droughts that Dr. Diffenbaugh has talked about, expansion of 
tropical diseases, crop failures. If we fail to get all the way 
to net zero, but we make a meaningful reduction in carbon, can 
we assume that we will avoid some of those economic losses?
    Ms. Cleetus. We have to reach net zero by mid century to 
really limit some of these losses. And the burden will fall to 
our children and grandchildren.
    Mr. Casten. I am not asking the moral question. I am just 
asking, do we save that money only if we get to net zero or do 
we save a portion of that money if we get part----
    Ms. Cleetus. Every fraction of a degree we can avoid 
matters. So we have got to go all in on mitigation and 
adaptation right now.
    Mr. Casten. Thank you.
    I would conclude from the two comments that we have both a 
moral obligation and an economic incentive to reduce CO2 as 
quickly as we can. And I would hope all of my colleagues will 
stop with this nonsensical argument that we have to wait for 
China.
    I want to stay with you, Dr. Cleetus, and specifically on 
the flooding issue. If we eliminated CO2 emissions today, how 
much sea level rise is already baked into the system?
    Ms. Cleetus. Unfortunately, we have a couple of feet of sea 
level rise already baked in. And what is really worrisome is 
that we are starting to see that land-based ice sheets are 
getting more and more unstable. So we may have set off a 
feedback loop that will have consequences for hundreds of 
years. And that land-based ice, once it starts to go, cutting 
emissions will unfortunately not be able to cut that feedback 
loop. So this is the moment to really dig in and cut emissions 
as fast as possible.
    Mr. Casten. So if we are looking at a couple of feet, talk 
to me about the major population centers in the United States 
that are below sea level with that level of rise, just the top 
ones off the top of your head.
    Ms. Cleetus. Everywhere along the eastern Gulf Coast, 
Boston, New York City, Miami, all around the eastern Gulf 
Coast, and many, many small communities that are not in the 
headlines but are going to be hit really, really hard with 
this.
    Mr. Casten. So I sit on the Financial Services Committee, 
and we recently had Fed Chairman Powell before us. And one of 
the questions that I asked him was that as he looks at the 
tests we do to evaluate the integrity of banks, does the 
Federal Reserve consider the exposure that banks have with 30-
year mortgages in these communities. And the answer was 
essentially no. We are somewhat unique in that.
    And, Chair Castor, I would like unanimous consent to enter 
into the record ``Avoiding the storm: Climate change and the 
financial system.'' It is a report by the Bank of England.
    Ms. Castor. Without objection.
    [The information follows:]

    ATTACHMENT: Breeden, S. (2019, April). Avoiding the storm: Climate 
change and the financial system. Official Monetary & Financial 
Institutions Forum. London.
    The speech is retained in the committee files and available at:
        https://www.bankofengland.co.uk/-/media/boe/files/speech/2019/
        avoiding-the-storm-climate-change-and-the-financial-system-
        speech-by-sarah-
        breeden.pdf?la=en&hash=AC28DFEFED7B14A197E6B0CB48044D06F4E38E84

    Mr. Casten. The Bank of England has asked their banking 
system to factor this in. You spoke a bit about that. Can you 
speak a little bit about what we should be doing on the other 
committees here to try to make sure that we evaluate those 
risks to our financial system?
    Ms. Cleetus. The private sector and the financial sector 
have a huge role to play. And when we did this research, we 
actually reached out to a number of private sector actors, 
bankers, lenders, investors. And what we heard from all of them 
was, yes, the science is real. Yes, the risk is real. And, no, 
the market is not pricing it accurately right now.
    The risk is flying below the radar. And, unfortunately, 
this is very, very risky for coastal communities, because 
should the market suddenly start to price the risk, the impact 
will be very harsh especially on low-income and fixed-income 
folks.
    So, absolutely, I think there is a responsibility from the 
Federal Government to ensure that our economic system, 
including our banking system, is taking these risks into 
account.
    Mr. Casten. Okay. Last thing, and again, this is from our 
purview on the Financial Services Committee, that the flood 
insurance program is up for renewal. You mentioned some 
commonsense reforms. We have to decide that pretty quickly. Can 
you help us understand a couple of those reforms that you would 
like to see in the flood insurance program?
    Ms. Cleetus. We need better flood mapping and money for it 
to accurately access these risks. We need to make sure that we 
are investing ahead of time, not just after disaster. So flood 
mitigation measures, including voluntary home buyouts, have to 
be funded well. We have to do this equitably so that we are not 
hitting low- and fixed-income folks in an inequitable way. So 
building in affordability measures as we do these things is 
very, very important. We have to get more people insured 
because these events are getting worse.
    Mr. Casten. When you mention voluntary home buyouts, just 
help me to understand, because we have--what should we do with 
that land once we have got it bought out?
    Ms. Cleetus. Turn it over into green space. That is land 
that should not be developed. But developing in these risky 
areas is only increasing the risk to people, property, and the 
taxpayer.
    Mr. Casten. Thank you. And I yield back the balance of my 
time.
    Ms. Castor. Mr. Neguse, you are recognized for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair.
    In September of 2013, the State of Colorado experienced 
what is known as a 100-year flood. Over the course of 1 week, 
an entire year's worth of rain fell along Colorado's front 
range. Over 18,000 people were evacuated from their 
communities, including my own. They returned to find thousands 
of homes and hundreds of roads and bridges destroyed. In total, 
the flood cost more than $4 billion in damages and tragically 
claimed 9 lives.
    Despite the devastation of this disaster, I am proud that 
Colorado has worked to repair and replace the affected roads 
with flood zones and the communities. And, ultimately, I 
believe these communities are smarter and stronger than before. 
But it is important to note, as we have rebuilt, ultimately, 
resiliency was not a choice; it was a necessity. The increase 
in extreme weather events means that our communities must be 
quick to respond, repair, and recover. And in the face of 
increasing climate disasters and uncertainty, my district is 
taking action on developing climate resiliency. So that is why 
I believe today's topic is so important. I appreciate the 
witnesses and their testimony. We absolutely need to have 
infrastructure in place to address the impacts of climate 
change, and we must do it soon.
    But I would be remiss if I did not agree and associate 
myself with the remarks of my colleague from California, 
Representative Huffman, which is to say that all of this work 
means nothing if we don't take real concrete action to address 
the cause of climate change and reduce our greenhouse gas 
emissions. Because if we don't, 100-year events like the 
catastrophic flooding in my State could become much more 
common.
    I want to ask you, Dr. Cleetus, in your testimony, you 
emphasized the kind of local communities and the ability of 
local communities to make recommendations for responding to 
climate change. In Colorado, as you might be familiar, I 
represent northern Colorado, so Boulder, Fort Collins, the 
Central Mountains. We have a number of communities that have 
developed these plans. I believe per capita the front range has 
more of these communities that have developed such plans than 
anywhere else in the United States. And yet there are many 
communities elsewhere in the State that have not.
    I am wondering if you could perhaps offer a bit more detail 
in terms of why you believe these plans are so important and 
how Congress and the Federal Government can help incentivize 
and motivate local communities to step forward.
    Ms. Cleetus. Yeah. We need action from the Federal to the 
local, so we need Federal resources and know-how on data and 
capacity building. The local communities understand best how 
adaptation is going to work in their geographies and their 
environments and the risks that are coming their way. For 
example, the wildfire risks that are coming and getting worse 
in the area of Colorado that you describe.
    And those wildfire risks affect forestry, they affect 
watersheds. They have all kinds of now gone effects. In the 
seasons after them, you start getting flooding events in the 
denuded landscapes. So we need to have more and more 
communities that are in power that have the resources and the 
tools and know how to develop these plans, to develop them in a 
well-resourced way, and to be able to take actions to protect 
themselves.
    So we are really looking now for the Federal Government to 
step up with the resources so that communities can do these 
plans better in an inclusive way with the stakeholder process 
that includes a wide variety of perspectives.
    Mr. Neguse. Thank you, Dr. Cleetus.
    And finally, Mr. Russell, thank you for your testimony. 
There are some exciting things happening back in my district 
around regenerative agriculture and so forth. I am curious, 
though, and I want to go back to a comment you made in 
reference to one of the questions that was posed with respect 
to the burgeoning growing wind industry in your State, in your 
home State of Iowa. You know, I believe you attributed that in 
part to the private sector, private markets. And of course, I 
agree that the private sector, of course, has a role. But I 
also am curious if you believe that there are any government 
investments that played a significant or substantive role in 
the wind industry becoming what it is in the State of Iowa.
    Mr. Russell. Absolutely. I mean, you first have the 
renewable portfolio standard as a starter and then the tax 
credits and continuing. So that is the foundation, good smart 
public policy, and then we have grown a tremendous economy on 
top of it. And that is really the future that is being 
presented to us, a future of abundance if we are willing to use 
smart public policy to move in and use capitalism to get the 
future we need, which is, you know, clean renewable energy and 
managing living systems.
    Mr. Neguse. Thank you, Dr. Russell.
    And with that, I guess I would only hope that our 
colleagues on this committee from both sides of the aisle, that 
we could join together to help build and refine and expand the 
foundation that you just described. I think that is the role of 
this committee and ultimately the Congress from a Federal 
policymaking standpoint.
    So with that, I would yield back the balance of my time.
    Ms. Castor. Thank you.
    Mr. Lujan for a UC request.
    Mr. Lujan. Madam Chair, I would ask unanimous consent to 
submit two articles into the record. The first is from Science 
Advances, ``Unprecedented climate events: Historical changes, 
aspirational targets, and national commitments.'' And the other 
is from The Hill, titled, ``Paris Agreement goals could save 
trillions in avoided climate damages.''
    I think I was asking the question in the wrong way to Dr. 
Diffenbaugh. So I appreciate the few pieces that I was able to 
identify. Thank you.
    Ms. Castor. Without objection.
    [The information follows:]

    ATTACHMENT: Diffenbaugh, N. S., Singh, D., & Mankin, J. S. (2018). 
Unprecedented climate events: Historical changes, aspirational targets, 
and national commitments. Science Advances, 4(2).
    The report is retained in the committee files and available at:
        https://advances.sciencemag.org/content/advances/4/2/
        eaao3354.full.pdf
    ATTACHMENT: Diffenbaugh, N. S., & Burke, M. (2018, May 27). Paris 
Agreement goals could save trillions in avoided climate damages. The 
Hill.
    The article is retained in the committee files and available at:
        https://thehill.com/opinion/energy-environment/389550-paris-
        agreement-goals-could-save-trillions-in-avoided-climate

    Ms. Castor. I also ask unanimous consent to have a 
statement for the record from Representative Bobby Scott of 
Virginia.
    Without objection, so ordered.
    [The information follows:]

                        Statement for the Record

                 Congressman Robert C. ``Bobby'' Scott

                 Select Committee on the Climate Crisis

                  Creating a Climate Resilient America

                              May 23, 2019

    Thank you, Chairwoman Castor, Ranking Member Graves and members of 
the Select Committee on the Climate Crisis for holding this hearing on 
creating a climate resilient nation.
    I represent the 3rd congressional district of Virginia where the 
Chesapeake Bay meets the James, Nansemond, and Elizabeth Rivers, which 
presents both challenges and opportunities. The U.S. Army Corps of 
Engineers has worked closely with our communities to ensure that they 
can continue to live with the water that surrounds our community.
    Unfortunately, due to sea level rise, both attributable to climate 
change as well as historic subsidence, these waterways also pose a 
serious risk. Some studies estimate that sea level rise to be as much 
as 7 feet by the year 2100, which makes the Hampton Roads region the 
second largest population center at risk from sea level rise in the 
nation, behind only New Orleans. The City of Norfolk is specifically at 
risk from flooding due to high tides, nor'easters, and hurricanes. As 
the home of Naval Station Norfolk and numerous other federal and 
military facilities, this recurrent flooding also poses a severe 
national security risk.
    State and local elected officials in Virginia already appreciate 
the significant threat sea level rise poses to Hampton Roads. 
Unfortunately, the cost to proactively and aggressively address this 
problem head-on is far too great for any city to bear by itself. While 
Norfolk has already spent considerable sums of money to study its 
recurrent flooding issues and implement resilient infrastructure where 
feasible, the scope of the entire project to actually address the 
problem is expected to total in the billions of dollars.
    As this committee considers ways to make our nation more resilient, 
I urge you to make flood mitigation a priority. I encourage you to look 
at the Building Up Infrastructure and Limiting Disasters through 
Resilience (BUILD Resilience) Act, legislation that I introduced last 
Congress with Senators Mark Warner and Tim Kaine and that I intend to 
introduce again soon. The BUILD Resilience Act would establish a 
competitive grant program for resilient infrastructure investment to 
bolster the ability of regions, such as Hampton Roads and New Orleans, 
to implement projects and strategies to reduce regional vulnerability 
to threats like sea level rise and recurrent flooding. Analyses by the 
Congressional Budget Office and the Multi-hazard Mitigation Council of 
the National Institute of Building Sciences estimate that every $1 
invested in resilient infrastructure upfront saves $3 to $4 in future 
losses on the back-end after a major disaster strikes. Investing 
upfront in resilient solutions can potentially help save taxpayers and 
impacted communities billions of dollars in avoided costs.
    Madam Chairwoman, thank you for allowing me the opportunity to 
share my concerns creating a climate resilient America with the select 
committee.

    Ms. Castor. Thank you all. Thank you to our witnesses for 
being here today. We are interested in building a more 
resilient America.
    Without objection, all members will have 10 business days 
within which to submit additional written questions for the 
witnesses. I ask our witnesses to please respond as promptly as 
possible.
    We are adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned.]

United States House of Representatives Select Committee on the Climate 
                                 Crisis

    Hearing on May 23, 2019 ``Creating a Climate Resilient America''

                        Questions for the Record

                          Dr. Noah Diffenbaugh

     Kara J Foundation Professor and Kimmelman Family Senior Fellow

                          Stanford University

                       the honorable kathy castor
    1. China's increasing emissions were raised in the hearing. Can you 
provide additional perspective on China's emissions and what impact 
they should or should not have on U.S. climate policies?
    While it is true that China's emissions have been increasing (along 
with those of many other countries, and the global total), there are a 
number of important aspects to consider as Congress deliberates US 
climate policies. Many of the relevant datasets are provided by the 
Global Carbon Project. In addition to the information below, I refer 
you to their most recent Global Carbon Budget.\1\
---------------------------------------------------------------------------
    \1\ Global Carbon Project, 2018 Global Carbon Budget: https://
www.globalcarbonproject.org/carbonbudget/18/presentation.htm.
---------------------------------------------------------------------------
    We know from the fundamental physics of Earth's energy balance that 
the warming of the planet is approximately proportional to the total 
cumulative greenhouse gas emissions.\2\ As a result, stabilizing the 
global temperature--and thus the global climate system--very likely 
requires reaching net-zero emissions.\3 4\ As the figures on the 
following page illustrate, the US has contributed the largest share 
(25%) of the world's total cumulative fossil fuel emissions, meaning 
that we are the largest contributor to the global warming that has 
already occurred. (And, as I articulated during my testimony on May 23, 
2019, US citizens are already experiencing acute impacts from that 
global warming.)
---------------------------------------------------------------------------
    \2\ Matthews, H.D., Gillett, N.P., Stott, P.A. and Zickfeld, K., 
2009. The proportionality of global warming to cumulative carbon 
emissions. Nature, 459(7248), 829-832.
    \3\ Matthews, H.D. and Caldeira, K., 2008. Stabilizing climate 
requires near-zero emissions. Geophysical research letters, 35(4), 
https://doi.org/10.1029/2007GL032388.
    \4\ Stocker, T.F., Qin, D., Plattner, G.K., Tignor, M., Allen, 
S.K., Boschung, J., Nauels, A., Xia, Y., Bex, V. and Midgley, P.M., 
2013. Climate Change 2013: The physical science basis. Fifth Assessment 
Report of the Intergovernmental Panel on Climate Change.
---------------------------------------------------------------------------
    In addition to being the largest historical emitter, according to 
the Global Carbon Project the US remains the largest emitter per 
capita, with annual per capita emissions that are more than twice as 
large as China or the EU, and almost 10 times as high as India.\1\ 
Further, it is also important to consider that, in addition to having 
much larger per capita emissions than China, the US also consumes 
products that are produced in China, and in other countries around the 
world. When the emissions that are embodied in these products are also 
considered, the total emissions associated with consumption in the US 
(and in the EU) are even greater than the respective territorial 
emissions, while the total emissions associated with consumption in 
China (and in India) are lower than the respective territorial 
emissions.
    Further, it is also important to consider the emissions intensity 
of the economy of each country. As is illustrated in the chart 
published by The Economist in May 2019 (reproduced below), China--and 
India and Indonesia--are curbing their emissions much earlier in their 
respective economic developments than the US and other OECD countries. 
For example, as the chart shows, China's per capita GDP is currently 
similar to the per capita GDP of the US and large European economies 
during the mid-20th century. However, China's emissions are currently 
approximately half of what the emissions of the US and large European 
economies were during the mid-20th century. As a result, in addition to 
having lower per capita emissions, China is much more economically 
efficient in its emissions than the US, and is in fact curbing its 
emissions much earlier in its long-term economic trajectory.
    A final point of context is that, because greenhouse gases are 
well-mixed throughout the global atmosphere, they affect the global 
energy balance, and thus climate around the world. As a result, US 
citizens are exposed to the climate change caused by all global 
emissions. As stated above, the US has accounted for 25% of the total 
global emissions to date, and we remain the largest per capita emitter. 
The future trajectory of US emissions will thus contribute very 
strongly to the climate risks that Americans experience in the future, 
with greater US emissions contributing to greater risks. (For a summary 
of these risks, please refer to my testimony on May 23, 2019.) Further, 
in addition to being exposed to the climate change caused by future US 
emissions, Americans are also exposed to the climate change caused by 
the emissions of all other countries. Put simply, the greater the total 
global emissions, the greater the climate change that will occur in the 
US, and the greater the risks to US citizens.\5\ As a result, even if 
one views the Chairwoman's question of US climate policies only from 
the perspective of risks in the US, there is clear evidence that 
policies that reduce the total global emissions will reduce the future 
risks to Americans.
---------------------------------------------------------------------------
    \5\ Diffenbaugh, N.S., 2013. Human well-being, the global emissions 
debt, and climate change commitment. Sustainability Science, 8(1), 
pp.135-141.
[GRAPHIC] [TIFF OMITTED] TG37407A.017

                     the honorable suzanne bonamici
    1. Like California, Oregon has faced horrific wildfires over the 
last few years and, unfortunately, it is becoming the norm. Last 
summer, our region known for its damp and green landscapes was 
suppressed by an orange blanket of haze. Surrounded by plumes of smoke 
moving south from British Columbia, north from Southern Oregon and 
California, and east from the Cascades, air quality in the Portland 
metropolitan area was recorded at levels unhealthier than Mumbai, 
Jakarta, and every major industrial city in China.
    Dr. Diffenbaugh, what are the economic and health consequences of 
wildfires?
    During my testimony on May 23, 2019, I summarized results of a 
recent review that my colleagues and I conducted evaluating the 
scientific evidence underpinning the EPA's ``Endangerment Finding'' for 
greenhouse gases.\6\ As is summarized in that peer-reviewed paper, the 
area burned in the western United States has increased approximately 
tenfold since the mid-1980s (see attached figure). Further, evidence 
shows that ``human-caused climate change caused over half of the 
documented increases in fuel aridity since the 1970s and doubled the 
cumulative forest fire area since 1984.'' \7\
---------------------------------------------------------------------------
    \6\ Duffy, P.B., Field, C.B., Diffenbaugh, N.S., et al., 2019. 
Strengthened scientific support for the Endangerment Finding for 
atmospheric greenhouse gases. Science, 363(6427), eaat5982.
    \7\ Abatzoglou, J.T. and Williams, A.P., 2016. Impact of 
anthropogenic climate change on wildfire across western US forests. 
Proceedings of the National Academy of Sciences, 113(42), pp.11770-
11775.
---------------------------------------------------------------------------
    These wildfires have proved very costly. For example, according to 
the National Oceanic and Atmospheric Administration (NOAA), the 2018 
western wildfires had a CPI-adjusted cost of $24.5 billion, while the 
2017 western wildfires had a CPI-adjusted cost of $18.7 billion.\8\
---------------------------------------------------------------------------
    \8\ NOAA Billion Dollar Weather and Climate Disasters, Table of 
Events: https://www.ncdc.noaa.gov/billions/events/US/1980-2019.
---------------------------------------------------------------------------
    In addition to the high financial losses caused by of catastrophic 
wildfires, we also know that the historical increases in area burned 
have been accompanied by rising costs of fire suppression. For example, 
as reported in the National Climate Assessment, both the total US 
burned area and federal spending on fire suppression have increased 
fourfold over the past 30 years, with suppression costs rising reaching 
approximately $2 billion/year in recent years (see attached figure).\9\
---------------------------------------------------------------------------
    \9\ Fourth National Climate Assessment, Chapter 6 ``Forests'': 
https://nca2018.globalchange.gov/chapter/6#fig-6-4.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Beyond the direct financial costs, it is also clear that wildfires 
have substantial health consequences. A recent review concluded that, 
``Consistent evidence from a large number of studies indicates that 
wildfire smoke exposure is associated with respiratory morbidity with 
growing evidence supporting an association with all-cause mortality.'' 
\10\ This finding confirms what so many US citizens have experienced 
first-hand in recent years: that wildfires can have far-reaching health 
consequences beyond the geographic area where the fires occur. In 
addition, of relevance for decisions about the management of wildfire 
risks, evidence is now emerging that health impacts of wildfires are 
greater than health impacts of prescribed burns.\11\
---------------------------------------------------------------------------
    \10\ Reid CE, Brauer M, Johnston FH, Jerrett M, Balmes JR, Elliott 
CT. 2016. Critical review of health impacts of wildfire smoke exposure. 
Environmental Health Perspectives 124:1334-1343; http://dx.doi.org/
10.1289/ehp.1409277.
    \11\ Prunicki, M., Kelsey, R., Lee, J., Zhou, X., Smith, E., 
Haddad, F., Wu, J. and Nadeau, K., 2019. The impact of prescribed fire 
versus wildfire on the immune and cardiovascular systems of children. 
Allergy. DOI: 10.1111/all.13825.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Although further research is needed to quantify and project the 
full costs of rising wildfire frequency in different areas of the US, 
we already have very strong evidence that wildfires are increasing, and 
anthropogenic climate change is contributing to that increase, and that 
costs associated with wildfires are increasing.
                        the honorable mike levin
    1. Dr. Diffenbaugh, you responded to Representative Brownley saying 
that recently half the wildfire area burned in California is due to the 
rising temperature, and you expect this trend to continue.
    Many Members on this committee are concerned about the cost of 
inaction on climate, and I believe it is important to understand the 
degree to which wildfire costs should be included in that cost of 
inaction. Have you or your colleagues quantified the financial costs 
associated with the greater burned area driven by climate change?
    During my testimony on May 23, 2019, I summarized results of a 
recent review that my colleagues and I conducted evaluating the 
scientific evidence underpinning the EPA's ``Endangerment Finding'' for 
greenhouse gases.\12\ As is summarized in that peer-reviewed paper, the 
area burned in the western United States has increased approximately 
tenfold since the mid-1980s (see attached figure). Further, evidence 
shows that ``human-caused climate change caused over half of the 
documented increases in fuel aridity since the 1970s and doubled the 
cumulative forest fire area since 1984.'' \13\
---------------------------------------------------------------------------
    \12\ Duffy, P.B., Field, C.B., Diffenbaugh, N.S., et al., 2019. 
Strengthened scientific support for the Endangerment Finding for 
atmospheric greenhouse gases. Science, 363(6427), eaat5982.
    \13\ Abatzoglou, J.T. and Williams, A.P., 2016. Impact of 
anthropogenic climate change on wildfire across western US forests. 
Proceedings of the National Academy of Sciences, 113(42), pp.11770-
11775.
---------------------------------------------------------------------------
    These wildfires have proved very costly. For example, according to 
the National Oceanic and Atmospheric Administration (NOAA), the 2018 
western wildfires had a CPI-adjusted cost of $24.5 billion, while the 
2017 western wildfires had a CPI-adjusted cost of $18.7 billion.\14\
---------------------------------------------------------------------------
    \14\ NOAA Billion Dollar Weather and Climate Disasters, Table of 
Events: https://www.ncdc.noaa.gov/billions/events/US/1980-2019.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In addition to the high financial losses caused by of catastrophic 
wildfires, we also know that the historical increases in area burned 
have been accompanied by rising costs of fire suppression. For example, 
as reported in the National Climate Assessment, both the total US 
burned area and federal spending on fire suppression have increased 
fourfold over the past 30 years, with suppression costs rising reaching 
approximately $2 billion/year in recent years (see attached 
figure).\15\
---------------------------------------------------------------------------
    \15\ Fourth National Climate Assessment, Chapter 6 ``Forests'': 
https://nca2018.globalchange.gov/chapter/6#fig-6-4.
---------------------------------------------------------------------------
    Beyond the direct financial costs, it is also clear that wildfires 
have substantial health consequences. A recent review concluded that, 
``Consistent evidence from a large number of studies indicates that 
wildfire smoke exposure is associated with respiratory morbidity with 
growing evidence supporting an association with all-cause mortality.'' 
\16\ This finding confirms what so many US citizens have experienced 
first-hand in recent years: that wildfires can have far-reaching health 
consequences beyond the geographic area where the fires occur. In 
addition, of relevance for decisions about the management of wildfire 
risks, evidence is now emerging that health impacts of wildfires are 
greater than health impacts of prescribed burns.\17\
---------------------------------------------------------------------------
    \16\ Reid CE, Brauer M, Johnston FH, Jerrett M, Balmes JR, Elliott 
CT. 2016. Critical review of health impacts of wildfire smoke exposure. 
Environmental Health Perspectives 124:1334-1343; http://dx.doi.org/
10.1289/ehp.1409277.
    \17\ Prunicki, M., Kelsey, R., Lee, J., Zhou, X., Smith, E., 
Haddad, F., Wu, J. and Nadeau, K., 2019. The impact of prescribed fire 
versus wildfire on the immune and cardiovascular systems of children. 
Allergy. DOI: 10.1111/all.13825.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Although further research is needed to quantify and project the 
full costs of rising wildfire frequency in different areas of the US, 
we already have very strong evidence that wildfires are increasing, and 
anthropogenic climate change is contributing to that increase, and that 
costs associated with wildfires are increasing.
    2. During the hearing, Rep. Levin asked the following question: 
``What types of projects and programs would you like to see in a 
discussion of a climate change resilient infrastructure bill?'' You 
responded: ``I would point you to the California Climate Safe 
Infrastructure Working Group, AB 2800, and our report that was released 
last summer.'' Please provide that report.
    The reference for the report is:
    Climate-Safe Infrastructure Working Group (CSIWG). 2018. Paying it 
forward: The Path Toward Climate-Safe Infrastructure in California. 
Report of the Climate-Safe Infrastructure Working Group to the 
California State Legislature and the Strategic Growth Council. 
Sacramento, CA: CNRA, Publication number: CNRA-CCA4-CSI-001.
    The report is available from the California Natural Resources 
Agency at this website: http://resources.ca.gov/climate/climate-safe-
infrastructure-working-group/.

                        Questions for the Record

                           Dr. Rachel Cleetus

              Policy Director, Climate and Energy Program

                  Union of Concerned Scientists (UCS)

                       the honorable kathy castor
    1. There was discussion in the hearing about the potential for the 
shift in magnetic poles to impact weather and whether natural 
variations have a greater or smaller impact on climate change than 
carbon emissions. What impact does the shift in magnetic poles have on 
weather and how does that compare to both natural variations and carbon 
emissions have on climate change? 
    The science is clear: human-caused emissions of heat-trapping gases 
are the dominant contributor to observed climate change since the mid-
20th century, and natural variations cannot account for more than a 
marginal contribution.
    The Fourth National Climate Assessment (NCA) is an authoritative 
summary of the latest climate science conducted by the US Global Change 
Research Program (USGCRP), which produces these reports on a regular 
basis under Congressional mandate.\1\ Volume 1 of the Fourth NCA, the 
Climate Science Special Report, provides a clear answer to the 
question, and I quote below:
---------------------------------------------------------------------------
    \1\ See https://www.globalchange.gov/about for the mandate of the 
USGCRP.

          Many lines of evidence demonstrate that human activities, 
        especially emissions of greenhouse gases, are primarily 
        responsible for the observed climate changes in the industrial 
        era, especially over the last six decades. Formal detection and 
        attribution studies for the period 1951 to 2010 find that the 
        observed global mean surface temperature warming lies in the 
        middle of the range of likely human contributions to warming 
        over that same period. The Intergovernmental Panel on Climate 
        Change concluded that it is extremely likely that human 
        influence has been the dominant cause of the observed warming 
        since the mid-20th century. Over the last century, there are no 
        alternative explanations supported by the evidence that are 
        either credible or that can contribute more than marginally to 
        the observed patterns. There is no convincing evidence that 
        natural variability can account for the amount of and the 
        pattern of global warming observed over the industrial era. 
        Solar flux variations over the last six decades have been too 
        small to explain the observed changes in climate. There are no 
        apparent natural cycles in the observational record that can 
---------------------------------------------------------------------------
        explain the recent changes in climate.

    The US National Academy of Sciences and the UK Royal Society have 
put together a short reference document, Climate Change: Evidence and 
Causes, that also clearly lays out the current state of climate science 
for policymakers, decisionmakers and the public.\2\ As the document 
notes:
---------------------------------------------------------------------------
    \2\ See http://dels.nas.edu/resources/static-assets/exec-office-
other/climate-change-full.pdf

          ``Scientists know that recent climate change is largely 
        caused by human activities from an understanding of basic 
        physics, comparing observations with models, and fingerprinting 
        the detailed patterns of climate change caused by different 
        human and natural influences. . .
          The expected changes in climate are based on our 
        understanding of how greenhouse gases trap heat. Both this 
        fundamental understanding of the physics of greenhouse gases 
        and fingerprint studies show that natural causes alone are 
        inadequate to explain the recent observed changes in climate. 
        Natural causes include variations in the Sun's output and in 
        Earth's orbit around the Sun, volcanic eruptions, and internal 
        fluctuations in the climate system (such as El Nino and La 
        Nina). Calculations using climate models have been used to 
        simulate what would have happened to global temperatures if 
        only natural factors were influencing the climate system. These 
        simulations yield little warming, or even a slight cooling, 
        over the 20th century. Only when models include human 
        influences on the composition of the atmosphere are the 
        resulting temperature changes consistent with observed 
        changes.''

    2. China's increasing emissions were raised in the hearing. Can you 
provide additional perspective on China's emissions and what impact 
they should or should not have on U.S. emissions targets or other U.S. 
climate policies?
    Climate change is a global problem and it will require a concerted 
effort by the entire global community--especially the major emitting 
nations--to help address it. No one nation, whether it be the US or 
China, can tackle this on its own.
    The reality is global emissions are still rising, at a time when 
they need to fall sharply. According to the IEA, in 2018 global energy-
related carbon dioxide emissions were up 1.7% and hit a record high of 
33.1 GtCO2.\3\ China's emissions grew by 2.5% and US emissions by 3.1%. 
According to the EIA, US energy-related CO2 emissions were up 2.8% in 
2018, the largest increase since 2010.\4\
---------------------------------------------------------------------------
    \3\ See https://www.iea.org/geco/.
    \4\ See https://www.eia.gov/todayinenergy/detail.php?id=38133.
---------------------------------------------------------------------------
    Clearly, both the US and China--and all major emitting countries--
will need to cut emissions significantly if we are to meet our climate 
goals of limiting global temperature increase to well below 2+C, aiming 
for 1.5+C. The US can and must play a leadership role. One of the most 
impactful things we can do is stay committed to the Paris Agreement and 
work hard to implement it in a robust way, in cooperation with other 
countries including China. Unless we act boldly together, we will fail 
to meet our climate goals and future generations everywhere will suffer 
as a result. The urgency of the climate crisis requires that we face 
this challenge head-on and not retreat to insular ways of thinking.
    The US and China are both global leaders in renewable energy and 
there is a huge opportunity to expand the global market in these 
technologies and create new jobs and economic opportunities in the 
process. Right now, the policy environment in the US is lagging and 
putting our nation at a competitive disadvantage. Now is the time to 
set ambitious targets for transitioning to a low-carbon economy and 
reaping all the economic, health and environmental benefits of doing 
so.
    China is both a global leader in renewable energy deployment and, 
unfortunately, in coal consumption. The US similarly has seen a big 
surge in renewable energy over the last decade but 2018 also saw the 
nation reach new records in the production, consumptions and export of 
fossil fuels.\5\
---------------------------------------------------------------------------
    \5\ See https://www.eia.gov/todayinenergy/detail.php?id=39392.
---------------------------------------------------------------------------
    In 2018, China was responsible for 32% of all new renewable power 
investments (see figure 1).\\
---------------------------------------------------------------------------
    \6\ See http://www.ren21.net/gsr-2019/.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

---------------------------------------------------------------------------
    It also led in solar PV installations (see figure 2)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    China is also leading the world in electric vehicle deployment (see 
figure 3)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    3. The minority witness, Mr. Keith Hodges, testified that 
government regulations promulgated under the Clean Water Act and other 
environmental protections are a barrier to creating communities that 
are resilient to flooding. Are environmental regulations barriers to 
protecting communities from the impacts of climate change?
    In short: no. In fact, environmental standards that help preserve 
natural ecosystems like wetlands, mangroves, barrier islands and 
vegetation can help reduce the harms and costs of flooding to 
communities in a very cost-effective and sustainable way. It would be 
very misguided to try to address flooding--which is worsening due to 
sea level rise and extreme precipitation driven by climate change--by 
eroding environmental protections. For more on the value of green 
infrastructure in protecting against flooding, please see resources 
from the EPA and NOAA.\7\
---------------------------------------------------------------------------
    \7\ See https://www.epa.gov/green-infrastructure/manage-flood-risk 
and https://coast.noaa.gov/digitalcoast/training/gi-cost-benefit.html.
---------------------------------------------------------------------------
                     the honorable suzanne bonamici
    1. According to the Oregon Climate Change Research Institute's 
Fourth Climate Assessment, in 2015 the Northwest experienced its 
warmest year on record. Temperatures were about 3.4 degrees Fahrenheit 
above normal. Snowpack in Oregon was the lowest on record, at more than 
89 percent below average. Precipitation from January to June 2015 was 
nearly five inches below average. In addition to producing the largest 
harmful algal bloom recorded on the West Coast, these conditions also 
led to low water levels and warmer water temperatures. As a result, 
there were widespread losses for our fisheries, including hundreds of 
thousands of sockeye salmon in the Columbia River.
    Dr. Cleetus, can you discuss the effects of warming temperatures 
and decreased snowpack and precipitation on the larger ecosystem, 
particularly our endangered fisheries, in the Northwest? How will 
climate change affect species in the future?
    As with the rest of the nation and the world, Oregon residents are 
experiencing impacts from global warming, resulting from the buildup of 
heat-trapping emissions in the atmosphere. The average annual 
temperature in the Pacific Northwest has risen by at least 1.5+F since 
the first half of the 20th century, and winter minimum temperatures 
have increased by more than 4.5+F.
    Forest mortality is rising in Oregon.\8\ Wildfires are becoming 
more frequent and intense, and the costs to fight them are growing. In 
2018, the price tag reached more than $514 million. More than 132,000 
Oregon homes were at high or extreme risk of damage from wildfire in 
2018.\9\
---------------------------------------------------------------------------
    \8\ Abatzoglou, J.T., and A.P. Williams. 2016. Impact of 
anthropogenic climate change on wildfire across western US forests. 
Proceedings of the National Academy of Sciences 113(42):11770-11775. 
Online at http://doi.org/10.1073/pnas.1607171113, accessed December 18, 
2018.
    \9\ CoreLogic. 2018. CoreLogic wildfire risk data. Irvine, CA.
---------------------------------------------------------------------------
    Higher temperatures and changes in precipitation already 
significantly affect water resources in the Northwest. Since 1955, 
parts of Oregon have experienced a decrease in average snowpack on 
April 1 of more than 70 percent.\10\ Winter snow accumulation in the 
mountains is a natural water storage system on which Oregon relies 
during its drier summer months, most critically for agriculture. 
Snowpack decline is projected to continue as more winter precipitation 
falls as rain rather than snow throughout much of the Pacific 
Northwest.\11\ Snow already melts as much as 30 days earlier than in 
the mid-20th century, reducing summer stream flows in many of the 
Northwest's snow-fed rivers.
---------------------------------------------------------------------------
    \10\ Mote, P.W., S. Li, D.P. Lettenmaier, M. Xiao, and R. Engel. 
2018. Dramatic declines in snowpack in the western US. npj Climate and 
Atmospheric Science 1(1):2. Online at http://doi.org/10.1038/ s41612-
018-0012-1, accessed December 18, 2018.
    \11\ Wehner, M.F., J.R. Arnold, T. Knutson, K.E. Kunkel, and A.N. 
LeGrande. 2017. Droughts, floods, and wildfires. In Climate science 
special report: Fourth National Climate Assessment, volume I, edited by 
D.J. Wuebbles, D.W. Fahey, K.A. Hibbard, D.J. Dokken, B.C. Stewart, and 
T.K. Maycock. Washington, DC: US Global Change Research Program. Online 
at http://doi.org/10.7930/J0CJ8BNN, accessed December 18, 2018.
---------------------------------------------------------------------------
    The increasing acidity of ocean surface waters is also damaging 
marine life. About 40 percent of the human-produced carbon dioxide 
released to the atmosphere over the last 250 years is now dissolved in 
the oceans, where it reacts chemically to make seawater more acidic and 
corrosive.\12\ Many types of shellfish are very sensitive to the 
effects of ocean acidification, posing potential risks to the fishing 
industry. For example, altered ocean chemistry contributed to declines 
in hatchery production near Oregon's Netarts Bay due to the softening 
of oyster shells at the largest independent producer of seed oysters in 
the Pacific Northwest.\13\ Increased ocean acidification is projected 
to continue altering the marine food web by decreasing the abundance of 
shell-forming species, which in turn threatens Pacific salmon and other 
culturally and commercially significant marine species.\14\
---------------------------------------------------------------------------
    \12\ DeVries, T., M. Holzer, and F. Primeau. 2017. Recent increase 
in oceanic carbon uptake driven by weaker upper-ocean overturning. 
Nature 542(7640):215-218. Online at www.nature.com/ articles/
nature21068, accessed January 2, 2019. doi:10.1038/ nature21068.
    \13\ Barton, A., G.G. Waldbusser, R.A. Feely, S.B. Weisberg, J.A. 
Newton, B. Hales, S. Cudd, B. Eudeline, C.J. Langdon, I. Jefferds, T. 
King, A. Suhrbier, and K. McLaughlin. 2015. Impacts of coastal 
acidification on the Pacific Northwest shellfish industry and 
adaptation strategies implemented in response. Oceanography 28(2):146-
159. Online at http://dx.doi.org/10.5670/oceanog.2015.38, accessed 
December 18, 2018.
    \14\ Dalton, M.M, K.D. Dello, L. Hawkins, P.W. Mote, and D.E. Rupp. 
2017. The third Oregon climate assessment report. Corvallis, OR: Oregon 
Climate Change Research Institute. Online at https://pnwcirc.org/ 
sites/pnwcirc.org/files/ocar3_finalweb.pdf, accessed December 13, 2018.
---------------------------------------------------------------------------
    According to the Fourth National Climate Assessment:\15\
---------------------------------------------------------------------------
    \15\ https://nca2018.globalchange.gov/chapter/24/.

        <bullet> The negative impacts on Northwest fisheries associated 
        with ocean warming, acidification, and harmful algal blooms are 
        expected to increase. This could lead to extensive fisheries 
        closures across all of the region's coastal fisheries, with 
        severe economic and cultural effects on commercial and 
        subsistence shellfish industries. 
        <bullet> Projections for increased stream temperature indicate 
        a 22% reduction in salmon habitat in Washington by late century 
        under a high emissions future.

    For more on the risks and solutions for climate change in Oregon, 
please see a recent UCS factsheet, Confronting Climate Change in 
Oregon.\16\ See also the Fourth National Climate Assessment, Volume II, 
Chapter 24 which is focused on the Northwest.\17\
---------------------------------------------------------------------------
    \16\ See https://www.ucsusa.org/sites/default/files/attach/2019/01/
Confronting-Climate-Change-Oregon-2019-final.pdf.
    \17\ See https://nca2018.globalchange.gov/chapter/24/.
---------------------------------------------------------------------------

                                  [all]


</pre></body></html>
